                                      September 29, 1999


MEMORANDUM

SUBJECT:       Region 8 Needs to Improve Its Performance Partnership Grant Program
               to Ensure Accountability and Improved Environmental Results
               Report No. 1999-000209-R8-100302

FROM:          Bennie S. Salem
               Divisional Inspector General

TO:            William P. Yellowtail
               Regional Administrator
               Region 8

Attached is our final report on Region 8's implementation and oversight of its performance
partnership grant (PPG) program. The report discusses issues that we believe will help Region 8
build a more effective PPG program leading to improved environmental results.

We held an exit conference with your staff on September 23, 1999, where we discussed the
Region’s response to the draft report and changes we would make based on the Region’s
response. We summarized the Region’s comments at the end of each chapter highlighting those
significant issues on which we and Region 8 disagreed. We also included the full text of the
Region's comments as Appendix I.

The Region suggested that we substitute “National Environmental Performance Partnership
System (NEPPS)” for “PPG” in many places throughout the report, because our review included
parts of NEPPS, including the Performance Partnership Agreement (PPA) process. Although
PPGs and NEPPS share some of the same goals, we did not specifically or comprehensively
evaluate the Region’s implementation of NEPPS. Therefore, we did not make this change.
Instead, we modified the report to clarify our audit scope and the basis for our definition of the
“PPG program.” Because Region 8 viewed all state PPG work plans as PPAs, we did substitute
the term “PPA” for “PPG work plan” where appropriate. We agree that because we did review
the portion of PPAs that represented PPG work plan commitments, our findings do address some
elements of Region 8's overall NEPPS implementation.

While Region 8 PPG project officers provided guidance and coordinated the PPG program, the
Region could have more effectively implemented its program. Region 8 and PPG recipients had
not fully achieved PPG program goals because some regional program staff disagreed with how
the Region implemented the program. As a result, all regional staff were not committed to the
program and did not actively participate in the PPG process. Region 8 also did not have
agreement or consensus on what work plans should include to ensure accountability. Further,
some regional program staff did not use or value the end-of-year reports because they were based
upon work plans that they stated were inadequate. Without widespread regional staff
commitment and participation, Region 8 will have difficulty fully achieving program goals and
ultimately, achieving improved environmental results.

Action Required

In accordance with Environmental Protection Agency (EPA) Order 2750, you, as the action
official, are required to provide this office with a written response within 90 days of the final
report date. For corrective actions planned, but not completed by the response date, reference to
specific milestone dates will assist in deciding whether to close this report.

We appreciate the cooperation and assistance your staff provided throughout the audit. The staff
showed a genuine interest in working with us to help improve the PPG program.

We have no objections to the release of this report to the public. This audit report contains
findings that the Office of Inspector General (OIG) has identified and corrective actions OIG
recommends. This audit report represents the opinion of OIG, and the findings in this report do
not necessarily represent the final EPA position. Final determinations on matters in this audit
report will be made by EPA managers in accordance with established EPA audit resolution
procedures.

If you have any questions, please call Jeff Hart, Audit Manager, at (303) 312-6169. Please refer
to report number 1999-000209-R8-100302 on any correspondence.

Attachment
             Office of Inspector General
             Report of Audit




               PERFORMANCE
                PARTNERSHIP
                  GRANTS

Region 8 Needs to Improve Its Performance Partnership
     Grant Program to Ensure Accountability and
          Improved Environmental Results

           Report No. 1999-000209-R8-100302

                  September 29, 1999
Inspector General Division   Central Audit Division
  Conducting the Audit:      Denver, Colorado

Region Covered:              Region 8

Program Offices Involved:    Office of Partnerships and Regulatory
                             Assistance
                             Enforcement, Compliance, and
                             Environmental Justice

Auditors Conducting Audit:   Kim Victor
                             Jean Finn
                             Garrett Westfall
                            Region 8 Needs to Improve Its PPG Program to Ensure
                              Accountability and Improved Environmental Results




               EXECUTIVE SUMMARY

INTRODUCTION      The Environmental Protection Agency (EPA) Region 8
                  awarded approximately $29.7 million in fiscal 1998
                  performance partnership grants (PPG). PPGs are designed
                  to provide recipients flexibility, reduce administrative
                  burdens and costs, strengthen partnerships, and most
                  importantly, improve environmental results while
                  continuing to address core program requirements. EPA's
                  1997 strategic plan states that the President's “performance
                  partnership” reinvention initiative provides for increased
                  flexibility in how a program is run in exchange for
                  increased accountability for results. A PPG is a multi-
                  program grant made to a recipient from funds allocated and
                  otherwise available for specific environmental programs.
                  PPGs are critical tools for implementing performance
                  partnerships.



OBJECTIVES        Our specific audit objectives were to answer the following
                  questions:

                  •      Is Region 8 effectively implementing its PPG
                         program to ensure that recipients accomplish overall
                         PPG program goals?

                  •      Has Region 8 negotiated PPG work plans that
                         include adequate financial and programmatic
                         accountability?

                  •      Does Region 8's oversight ensure that recipients
                         meet PPG work plan commitments and use PPG
                         funds efficiently and effectively?




                             i                Report No. 1999-000209-R8-100302
                              Region 8 Needs to Improve Its PPG Program to Ensure
                                Accountability and Improved Environmental Results


RESULTS IN BRIEF   While Region 8 PPG project officers provided guidance
                   and coordinated the PPG program, the Region could have
                   more effectively implemented its program. Region 8 and
                   PPG recipients had not fully achieved PPG program goals
                   because some regional program staff disagreed with how
                   Region 8 implemented the program. As a result, some
                   program staff were not committed to the program and did
                   not actively participate in the PPG process. Further,
                   Region 8 had not developed clear goals and performance
                   measures to gauge progress in implementing its program.
                   Without widespread regional staff commitment and
                   participation, Region 8 will have difficulty fully achieving
                   program goals. Without specific regional PPG program
                   goals and performance measures, regional and state staff
                   cannot track PPG program progress and demonstrate
                   whether PPGs have resulted in improved environmental
                   results and human health.

                   Work plan commitments were not all time-specific,
                   measurable, quantifiable, and verifiable, and end-of-year
                   reports did not address or provide descriptive responses to
                   all work plan commitments. While Region 8 monitored
                   and evaluated recipients’ environmental programs, the
                   Region’s oversight did not ensure that all recipients
                   accomplished all work plan commitments and used the
                   funds efficiently and effectively. Region 8 did not have
                   agreement or consensus on what work plans should include
                   to ensure accountability. Further, regional program staff
                   did not use end-of-year reports to ensure work plan
                   commitments were met. Without work plans that clearly
                   demonstrate adequate accountability and descriptive end-
                   of-year reports, the Region could not determine whether
                   recipients used PPG funds efficiently and effectively and
                   accomplished improved environmental results.




                              ii               Report No. 1999-000209-R8-100302
                                Region 8 Needs to Improve Its PPG Program to Ensure
                                  Accountability and Improved Environmental Results


RECOMMENDATIONS      We recommend that the Regional Administrator (RA)
                     establish a forum where regional program staff can discuss
                     their disagreements and concerns with senior regional
                     managers regarding the Region’s PPG program
                     implementation. During the forum, regional staff should
                     brainstorm possible solutions that address their concerns as
                     well as support achieving PPG program goals. Agreement
                     or consensus should be reached on: (1) whether core
                     performance measures are sufficient by themselves, and (2)
                     what amount of detail in work plan commitments provides
                     adequate accountability. Based on the results of this forum,
                     the RA should develop regional guidance on what should be
                     included in a work plan. The RA should also require
                     recipients to submit end-of-year reports that specifically
                     address each work plan commitment and provides
                     information on whether recipients are improving
                     environmental results under PPGs.



AGENCY COMMENTS      Region 8 generally agreed with the factual accuracy of the
AND OIG EVALUATION   report and, as a result of the exit conference, agreed with all
                     but 3 of the 32 specific recommendations. Region 8 offered
                     comments to clarify some issues and recommendations, and
                     we modified our report as appropriate. We summarized
                     Region 8 comments at the end of each chapter highlighting
                     those significant issues on which we and Region 8
                     disagreed. We also included the full text of Region 8's
                     comments as Appendix I.




                               iii                Report No. 1999-000209-R8-100302
                Region 8 Needs to Improve Its PPG Program to Ensure
                  Accountability and Improved Environmental Results




This page intentionally left blank.




                iv                Report No. 1999-000209-R8-100302
                                                               Region 8 Needs to Improve Its PPG Program to Ensure
                                                                 Accountability and Improved Environmental Results



                                       TABLE OF CONTENTS

                                                                                                                Page
EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

CHAPTERS

1        INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
              PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
              BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
              SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
              PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

2        IMPROVEMENTS IN REGION 8'S PPG PROGRAM WOULD HELP
         ACCOMPLISH PROGRAM GOALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  11
              PPG GUIDANCE DEFINES PROGRAM GOALS . . . . . . . . . . . . . . . . . . . . .                                   11
              PPG PROJECT OFFICERS COORDINATED PPG PROGRAM . . . . . . . . . . .                                             12
              PPG PROGRAM GOALS NOT FULLY ACHIEVED . . . . . . . . . . . . . . . . . . .                                     13
              PPG PROGRAM NEEDED FULL REGIONAL COMMITMENT
               AND PARTICIPATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             18
              REGION 8 NEEDED TO DEVELOP REGIONAL PPG PROGRAM
               GOALS AND PERFORMANCE MEASURES AND DEFINE
               STAFF ROLES AND AUTHORITY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         21
              CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     22
              RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              23
              AGENCY COMMENTS AND OIG EVALUATION . . . . . . . . . . . . . . . . . . . .                                     25

3        BETTER WORK PLANS NEEDED TO ENSURE ADEQUATE
          ACCOUNTABILITY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     27
              REGULATIONS AND GUIDANCE DEFINE WORK PLAN
               REQUIREMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          27
              REGION 8 NEEDED CONSENSUS ON WORK PLAN
               ACCOUNTABILITY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            29
              WORK PLANS DID NOT CLEARLY IDENTIFY CORE
               PERFORMANCE MEASURES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      31
              MOST COMMITMENTS WERE NOT TIME-SPECIFIC,
              MEASURABLE, QUANTIFIABLE, AND VERIFIABLE . . . . . . . . . . . . . . . .                                       31



                                                                                     Report No. 1999-000209-R8-100302
                                                            Region 8 Needs to Improve Its PPG Program to Ensure
                                                              Accountability and Improved Environmental Results


                STAFF CONTINUED TO RELY ON ACTIVITY OR OUTPUT
                 MEASURES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   33
                CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    35
                RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             36
                AGENCY COMMENTS AND OIG EVALUATION . . . . . . . . . . . . . . . . . . . .                                    37

4     IMPROVED PPG END-OF-YEAR REPORTS NEEDED TO HELP
        ENSURE WORK PLAN COMMITMENTS WERE MET . . . . . . . . . . . . . . . . . . . .                                         39
           REGULATIONS AND PPG GUIDANCE DEFINE EPA GRANT
             OVERSIGHT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        40
           PPG END-OF-YEAR REPORTS NOT USED BY ALL
             REGIONAL STAFF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             40
           SOME PPG END-OF-YEAR REPORTS WERE INCOMPLETE . . . . . . . . . .                                                   41
           MIXED REACTIONS ON MID-YEAR PROCESS AND JOINT
             END-OF-YEAR REVIEWS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    43
           REGION UNSURE IF RECIPIENTS SPENT PPG FUNDS
             EFFICIENTLY AND EFFECTIVELY . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            44
           EFFECTIVE COORDINATION NEEDED TO ENSURE CORRECT
             MATCH CALCULATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    45
           CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         45
           RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  46
           AGENCY COMMENTS AND OIG EVALUATION . . . . . . . . . . . . . . . . . . . .                                         48

EXHIBITS

1     SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

2     CONTRASTING EXAMPLES OF WORK PLAN COMMITMENTS . . . . . . . . . . . . . 52

APPENDICES

I     AGENCY RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53

II    ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63

III   DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 64




                                                                                   Report No. 1999-000209-R8-100302
                    Region 8 Needs to Improve Its PPG Program to Ensure
                      Accountability and Improved Environmental Results



           CHAPTER 1

          INTRODUCTION
PURPOSE   The Environmental Protection Agency's (EPA) 1997
          strategic plan states that the President's “performance
          partnership” reinvention initiative provides for increased
          flexibility in how a program is run in exchange for
          increased accountability for results. Performance
          partnerships are EPA’s new approach to working with
          states and tribes (recipients) to better implement
          environmental programs and achieve environmental results.
          A performance partnership grant (PPG) is a critical tool for
          EPA's implementation of performance partnerships. Both
          performance partnerships and PPGs represent a significant
          shift in how EPA and its partners work together to address
          human health and environmental protection.

          This audit is part of the Office of Inspector General (OIG)
          PPGs and National Environmental Performance
          Partnership System Issue Area Plan dated September 1998.
          OIG made a commitment to assess EPA’s PPG program
          implementation and determine what improvements were
          needed to ensure EPA implemented the program
          effectively and achieved environmental results.


          Our specific audit objectives were to answer the following
          questions:

                •       Is Region 8 effectively implementing its PPG
                        program to ensure that recipients accomplish
                        overall PPG program goals?

                •       Has Region 8 negotiated PPG work plans that
                        include adequate financial and programmatic
                        accountability?



                    1                 Report No. 1999-000209-R8-100302
                                      Region 8 Needs to Improve Its PPG Program to Ensure
                                        Accountability and Improved Environmental Results


                                  •       Does Region 8's oversight ensure that
                                          recipients meet PPG work plan commitments
                                          and use PPG funds efficiently and effectively?




BACKGROUND                  Beginning in fiscal 1996, EPA received authority to award
                            PPGs. PPGs were part of EPA’s effort to improve how
PPG Authority and Purpose   EPA and its partners protect the environment. A PPG is a
                            multi-program grant made to a recipient from funds
                            allocated and otherwise available for a specific
                            environmental program. PPGs provide recipients with the
                            option to combine grant funds from two or more specific
                            environmental grants (such as those authorized under the
                            Clean Water Act and the Clean Air Act) into one or more
                            PPGs. Recipients may then use PPGs to fund activities that
                            are within the scope of the programs included in their PPG.
                            Recipients may include any of the 17 eligible grant
                            programs in their PPG.

                            EPA developed PPGs as a response to recommendations
                            from various internal and external stakeholders to increase
                            recipient flexibility, achieve administrative savings by
                            streamlining the grants process, strengthen EPA
                            partnerships with recipients, and help recipients improve
                            environmental results. These recommendations formed the
                            basis for the PPG program's purposes and goals.

                            PPGs are intended to improve the performance of
                            environmental protection programs by providing recipients
                            with greater flexibility in how they manage and implement
                            programs that use grant funds. This increased flexibility
                            will enable recipients to better coordinate and integrate
                            activities that were fragmented in many statutes,
                            regulations, and programs. PPGs will facilitate funding of
                            activities such as pollution prevention, multi-media permits
                            and enforcement, and community-based environmental
                            protection. PPGs are also intended to reduce


                                      2                 Report No. 1999-000209-R8-100302
          Region 8 Needs to Improve Its PPG Program to Ensure
            Accountability and Improved Environmental Results


administrative burden and ultimately, improve
environmental results.

EPA designed PPGs to encourage improved environmental
results by linking program goals with program outcomes
and by increasing the use of environmental indicators and
program performance measures. Environmental indicators
provide information on the environmental conditions,
trends, and results. Program performance measures gauge
progress in meeting agreed upon goals. Indicators and
performance measures create a foundation for better
reporting, monitoring, and assessment of state, tribal, and
national environmental conditions.

All PPGs must contain a legally binding set of work plan
commitments. PPG guidance defines work plan
commitments as

       a description of the PPG program goals and
       objectives, results and benefits expected, a
       plan of action, and quantifiable projections of
       the program and environmental
       accomplishments to be achieved and the
       performance measures to be used...PPG
       work plan commitments are the legal basis
       for the expenditure of federal grant funds
       and the recipient’s matching requirement.

PPG program commitments may be contained in
categorical or PPG work plans, in a Performance
Partnership Agreement (PPA), or in a tribal environmental
agreement. A categorical work plan that is used for a PPG
work plan would be the same as that prepared for a
categorical grant. A PPA is a negotiated agreement
between a region and a state that describes jointly
developed goals, objectives, and priorities and may, but not
necessarily, include work plan commitments that are the
basis for the PPG. The agreements typically include the
strategies to be used in meeting the PPG commitments, the


          3                 Report No. 1999-000209-R8-100302
                                       Region 8 Needs to Improve Its PPG Program to Ensure
                                         Accountability and Improved Environmental Results


                             roles and responsibilities of the state and EPA, and the
                             measures to be used in assessing progress. Similarly, a
                             tribal environmental agreement is a strategic planning
                             document negotiated between a region and a tribe that sets
                             out environmental goals, objectives, outcomes, outputs,
                             priorities, actions to be taken, and measures of
                             performance.

                             Region 8 consists of six states--Colorado, Montana, North
                             Dakota, South Dakota, Utah, and Wyoming. Region 8 also
                             has within its boundaries 27 tribes residing on 26
                             reservations. In fiscal 1998, Region 8 allocated $109.6
                             million for state and tribal environmental program grants.
                             Of this amount, $52.3 million was available to be
                             reprogrammed into PPGs and Region 8 awarded
                             approximately $29.7 million (about 56.8 percent) in PPGs.
                             All 6 Region 8 states and 3 of 27 tribes received 1998
                             PPGs. Four of the six states used a PPA that included their
                             work plan. The other two states and all three tribes used
                             work plans that were similar to their prior categorical work
                             plans. Because Region 8 viewed all state PPG work plans
                             as PPAs, we used the term “PPAs” where appropriate,
                             when referring to any of the six state PPG work plans.

Relationship between PPGs,   As described in EPA’s Five-Year Strategic Plan, the
PPAs, and the National       National Environmental Performance Partnership System
Environmental Performance    (NEPPS) provides a framework for defining a new
Partnership System           EPA/State relationship and PPGs are a key tool for
                             implementing this framework. On May 17, 1995, state and
                             EPA leaders signed a Joint Commitment to Reform
                             Oversight and Create a National Environmental
                             Performance Partnership System (NEPPS). The objective
                             of this agreement was to accelerate the transition to a new
                             working relationship between EPA and states–one which
                             reflected the advancement made in environmental
                             protection over the preceding 2 decades by both states and
                             EPA. In addition, the agreement recognized that existing
                             policies and management approaches must be modified to
                             ensure continued environmental progress.


                                       4                Report No. 1999-000209-R8-100302
                                       Region 8 Needs to Improve Its PPG Program to Ensure
                                         Accountability and Improved Environmental Results


                             While PPAs are listed as one of the seven specific NEPPS
                             components, PPGs are not. Although NEPPS and PPGs
                             share many of the same goals, recipients may apply for
                             PPGs without implementing NEPPS and vice-versa. EPA
                             PPG guidance, dated July 1996 and October 6, 1998, states
                             that the key goals that NEPPS shares with PPGs are:

                                    to allow States and EPA to achieve
                                    improved environmental results by directing
                                    scarce public resources toward the highest
                                    priority, highest value activities; to provide
                                    States with greater flexibility to achieve
                                    those results; to improve public
                                    understanding of environmental conditions
                                    and choices; and to enhance accountability to
                                    the public and taxpayers.

                             Although PPGs and NEPPS share some of the same goals,
                             we did not specifically evaluate the Region’s
                             implementation of NEPPS. However, because we did
                             review the portion of PPAs that represented the PPG work
                             plan commitments, our findings do address some elements
                             of Region 8's overall NEPPS implementation.

                             While NEPPS was an agreement between states and EPA,
                             many of the concepts of this performance partnership also
                             apply to EPA's relationship with tribes. Under
                             performance partnerships, EPA and its partners are
                             expected to achieve more integrated environmental
                             management and enhanced environmental results. This
                             new partnership should also enable EPA and its partners to
                             move progressively beyond relying on numbers of permits
                             issued, inspections made, or other similar measures, to
                             performance measures that more directly reflect changes in
                             environmental quality.

PPG Program Organizational   EPA developed interim guidance in 1996 and 1998 that
Structure                    served as the operating guidance for states and tribes
                             interested in applying for PPGs. Regional offices were to


                                       5                Report No. 1999-000209-R8-100302
          Region 8 Needs to Improve Its PPG Program to Ensure
            Accountability and Improved Environmental Results


use this operating guidance to develop and implement their
PPG programs. The guidance states that the Regional
Administrator should designate a single PPG project officer
for each PPG award.

Region 8's State Assistance Program and Tribal Assistance
Program within its Office of Partnerships and Regulatory
Assistance were responsible for implementing Region 8's
PPG program. State program managers and tribal program
managers within these programs, respectively, served as
PPG project officers. These project officers were the
primary point of contact for PPG grant recipients and were
responsible for coordinating and facilitating programmatic
and technical aspects of PPGs, PPAs, and tribal PPG work
plans within the Region. Region 8's PPG project officers
were not program experts and relied upon regional program
staff to perform programmatic and technical activities such
as work plan negotiations and evaluating recipients'
performance.

The Region had separate PPG project officers for the two
states that had pesticide PPGs. These project officers were
located within the Region’s Pollution Prevention, Pesticides
and Toxics Program, and they coordinated with the State
Assistance Program. The State Assistance Program initially
had responsibility for the two pesticide PPGs, but the
Region determined that it was more efficient for the
pesticides program staff to handle the pesticide PPGs. In
addition, the two pesticide PPGs were awarded to the
individual state’s agricultural department rather than its
environmental agency.

While the Region's PPG project officers were responsible
for coordinating the Region's PPG program, regional grants
specialists were responsible for PPG administrative
functions. Region 8's grants specialists within the Grants,
Audit, and Procurement Program in the Technical and
Management Services Office were responsible for



          6                Report No. 1999-000209-R8-100302
                         Region 8 Needs to Improve Its PPG Program to Ensure
                           Accountability and Improved Environmental Results


              reviewing PPG applications and related forms and
              certifications, preparing documentation related to the grant

              award and amendments, reviewing financial status reports,
              and calculating recipients' PPG match.

              Region 8 staff in the regional suboffice in Helena, Montana,
              were responsible for Montana recipients' PPGs. Staff
              included two PPG project officers, one for the State of
              Montana and one for tribes within Montana, as well as a
              grant specialist.

              For the purposes of this audit, we defined “PPG program”
              as the administrative and programmatic processes and
              activities Region 8 uses to implement PPG goals including:
              (1) the consolidation of categorical grant funds into a single
              grant document (the PPG itself), (2) the development of and
              documentation of specific work plan commitments
              supporting the awarding of PPG funds, and (3) regional
              oversight and recipients’ documentation of the
              accomplishment of those work plan commitments.



SCOPE AND     We performed our audit in accordance with Government
METHODOLOGY   Auditing Standards (1994 Revision) issued by the
              Comptroller General of the United States. Our review
              included an analysis of program records and other auditing
              procedures we considered necessary. We conducted our
              fieldwork from January through July 1999. Our review
              included five of six states’ fiscal 1998 and all three tribes’
              fiscal 1998 and 1999 PPGs, work plans, and end-of-year
              reports. We did not verify whether the five state and two
              tribes actually met their work plan commitments or
              performed the work they said they did in their end-of-year
              reports.

              We performed our fieldwork at Region 8 in Denver,
              Colorado. We also visited agencies in two states: (1)


                         7                 Report No. 1999-000209-R8-100302
                         Region 8 Needs to Improve Its PPG Program to Ensure
                           Accountability and Improved Environmental Results


              Utah’s Department of Environmental Quality and
              Department of Agriculture in Salt Lake City, Utah; and
              (2) South Dakota’s Department of Environment and
              Natural Resources and Department of Agriculture in Pierre,
              South Dakota.

              See Exhibit 1 for scope and methodology details.


PRIOR AUDIT   OIG has not issued any audit reports related to Region 8's
COVERAGE      PPG program implementation. However, OIG and
              Regional staff conducted a joint management assistance
              review of Colorado’s 1997 PPG, and 1997 and 1998 PPAs.
              As a result of the management assistance review, OIG and
              regional staff suggested that the State and Region 8 staff:
              (1) continue developing partnerships but recognize that
              some State and regional staff had not accepted the PPG
              program; (2) ensure work plan commitments were time-
              specific, measurable, quantifiable, and verifiable; (3) agree
              on end-of-year reporting detail; (4) ensure end-of-year
              reports assess how well the State was accomplishing its
              work plan commitments and goals; and (5) agree on
              regional oversight.

              In 1996, OIG issued two special reports on demonstration
              grants awarded to North Dakota and New Hampshire. In
              1997, OIG issued a special report on a demonstration grant
              awarded to Massachusetts. These grants were predecessors
              to PPGs and contained similar objectives including
              providing states with more flexibility to address their
              priorities. The demonstration grant audits found that: (1)
              regional internal “turf battles” and statutory restrictions
              were barriers to moving resources to address priority
              environmental problems; (2) states still used activity-based
              performance measures due to inadequate guidance or
              incentive; and (3) some measures were not time-specific,
              quantifiable, or adequate to provide accountability. The
              reports found positive aspects of the demonstration grants
              including some administrative efficiencies and increased


                        8                 Report No. 1999-000209-R8-100302
           Region 8 Needs to Improve Its PPG Program to Ensure
             Accountability and Improved Environmental Results


cross-media enforcement activities.

The U.S. General Accounting Office issued,
ENVIRONMENTAL PROTECTION: Collaborative EPA-
State Effort Needed to Improve New Performance
Partnership System, dated June 21, 1999. The audit found
that the development of outcome measures has been
impeded by an absence of baseline data, inherent difficulty
in quantifying certain results, difficulty of linking program
activities to environmental results, and considerable
resources needed for high-quality performance
measurement. The audit also found that EPA's oversight of
states participating in the new system had been realized
only to a limited degree. Among the factors complicating
EPA's oversight were: (1) statutory and/or regulatory
requirements in some cases prescribed the kind of oversight
required by EPA over states, (2) reluctance by EPA staff to
reduce oversight without the measures in place to ensure
that environmental quality would not be compromised, and
(3) the inherent difficulty in “letting go” on the part of
some EPA staff that have implemented the existing EPA-
state oversight arrangement for years. The audit also
identified a number of reported benefits associated with the
new system that included improving communication about
program priorities among EPA and state program staff and
allowing states the option to shift resources under the PPG
program.

The U.S. General Accounting Office also issued,
ENVIRONMENTAL INFORMATION: EPA Is Taking Steps
to Improve Information Management, but Challenges
Remain, dated September 1999. The audit found that
EPA’s ability to evaluate the outcomes of its programs in
terms of changes in the environment is limited by gaps and
inconsistencies in the quality of its data. The report stated
that of the 357 measures of performance that EPA has
developed for use during fiscal year 2000 to report its
accomplishments under the Government Performance and



          9                 Report No. 1999-000209-R8-100302
           Region 8 Needs to Improve Its PPG Program to Ensure
             Accountability and Improved Environmental Results


Results Act, EPA reports that only 71 measures will reflect
environmental outcomes. EPA’s program offices will have
to overcome: (1) difficulties in establishing cause-and-effect
relationships between program activities and environmental
outcomes, (2) a lack of reliable baseline data against which
to measure progress and a more generalized lack of reliable
data about the environment, and (3) constraints on the
resources for gathering and analyzing the data.




          10                Report No. 1999-000209-R8-100302
                             Region 8 Needs to Improve Its PPG Program to Ensure
                               Accountability and Improved Environmental Results



                   CHAPTER 2
     IMPROVEMENTS IN REGION 8'S PPG PROGRAM
     WOULD HELP ACCOMPLISH PROGRAM GOALS
                  Region 8 could have more effectively implemented the
                  PPG program. The PPG program goals are to provide
                  flexibility, reduce administrative burdens and costs,
                  strengthen partnerships, and most importantly, improve
                  environmental results. Region 8 PPG project officers
                  provided guidance and coordinated the PPG program.
                  However, Region 8 and PPG recipients had not fully
                  achieved PPG program goals primarily because some
                  regional program staff disagreed with how Region 8
                  implemented the program. As a result, some program staff
                  were not committed to the PPG program and did not
                  actively participate in the PPG process. Further, Region 8
                  had not developed clear goals and performance measures to
                  gauge progress in implementing its PPG program. Without
                  widespread regional staff commitment and participation,
                  Region 8 will have difficulty fully achieving PPG program
                  goals. Without specific regional PPG program goals and
                  performance measures, regional and state staff cannot track
                  PPG program progress and demonstrate whether PPGs
                  have resulted in improved environmental results and
                  human health.



PPG GUIDANCE      PPG guidance, dated July 1996 and October 6, 1998,
DEFINES PROGRAM   describes four goals of the PPG program.
GOALS
                         •        Flexibility. Recipients will have the
                                  flexibility to address their highest
                                  environmental priorities, while continuing to
                                  address core program requirements.

                         •        Administrative Savings. Recipients and
                                  EPA can reduce administrative burdens and


                             11               Report No. 1999-000209-R8-100302
                             Region 8 Needs to Improve Its PPG Program to Ensure
                               Accountability and Improved Environmental Results


                                  costs by reducing the number of grant
                                  applications, budgets, work plans, and
                                  reports.

                         •        Strengthened Partnerships. EPA will
                                  develop partnerships with recipients where
                                  both parties share the same environmental
                                  and program goals and deploy their unique
                                  resources and abilities to jointly accomplish
                                  those goals.

                         •        Improved environmental results. PPGs will
                                  encourage recipients to improve
                                  environmental results and more effectively
                                  link program activities with environmental
                                  goals and program outcomes; and develop
                                  innovative pollution prevention, ecosystem,
                                  and community-based strategies.



PPG PROJECT       Region 8's PPG project officers provided guidance on
OFFICERS          PPGs and coordinated meetings related to the PPG process.
COORDINATED PPG   They provided guidance on PPA negotiation process, end-
PROGRAM           of-year reviews, and carryover funds. The project officers
                  also provided a detailed schedule of major milestones
                  related to the PPG program and helped regional staff meet
                  those milestones. PPG project officers, working with
                  regional grant specialists, also provided PPG grant training
                  workshops. They provided regional kickoff meetings at the
                  beginning of each fiscal year that addressed the annual
                  planning, development, and evaluation process. They also
                  coordinated mid-year meetings between senior regional and
                  state managers as well as the annual state directors' meeting
                  with regional managers.

                  Recipient staff stated that an important function PPG
                  project officers served was providing a single point of
                  contact for recipients. One state representative stated that


                             12                Report No. 1999-000209-R8-100302
                                            Region 8 Needs to Improve Its PPG Program to Ensure
                                              Accountability and Improved Environmental Results


                                 the main reason his program achieved success with the PPG
                                 was because of the working relationship between the PPG
                                 project officer and his staff. Another state representative
                                 stated that coordinating with a single liaison within the
                                 Region rather than having to coordinate with several
                                 regional staff had been very beneficial in the PPG process.



PPG PROGRAM GOALS                Despite PPG project officers' guidance and coordination,
NOT FULLY ACHIEVED               Region 8 did not fully achieve PPG program goals. PPG
                                 recipients: (1) had not achieved the full flexibility
                                 potential to address their highest priorities, (2) had realized
                                 varying degrees of administrative savings, (3) had
                                 strengthened partnerships, and (4) were uncertain about
                                 whether the PPG program resulted in improved
                                 environmental results. While we found some positive
                                 examples of success, barriers within Region 8 and recipient
                                 agencies prevented PPG program goals from being fully
                                 achieved.

Full Flexibility Potential Not   States had not fully achieved one of the most attractive
Achieved                         aspects of the PPG to recipients–flexibility. According to
                                 regional and state staff, most states had not shifted funds
                                 from one program to another to address their highest
                                 environmental priorities. Both regional and state program
                                 staff identified insufficient resources, strong constituencies
                                 (i.e., state water boards and commissions), state legislative
                                 reporting requirements, internal turf battles, and lack of a
                                 process to identify priorities and make investments or
                                 disinvestments as barriers to flexibility. Some recipients
                                 stated, however, that while they had not yet utilized PPG
                                 flexibility, the fact that the potential flexibility existed was
                                 one of the strong incentives for keeping a PPG.

                                 Some state program staff said that insufficient resources
                                 prevented them from shifting funds to strategically plan,
                                 identify priorities, and address environmental priorities



                                            13                 Report No. 1999-000209-R8-100302
           Region 8 Needs to Improve Its PPG Program to Ensure
             Accountability and Improved Environmental Results


beyond basic core environmental program requirements.
For example, Wyoming’s resource limitations did not
allow staff time for strategic planning. Insufficient
resources kept Wyoming focused on trying to achieve the
basic core program requirements which left no time or
resources for strategic planning. According to some state
staff, federal grant funds barely supported basic core
program requirements. For example, one state program
director said his program was “anorexic” in terms of
funding.

Strong constituencies and state legislative reporting
requirements prevented state staff from shifting funds from
one program to another. Each program had strong
constituencies that put pressure on states to ensure no
reduction in funding occurred in the programs. Some state
legislatures required states to report exactly how funds were
spent and the source of the funds. As a result, some states
traced expenditures by specific program and were
discouraged from shifting funds from one program to
another.

State internal turf battles also hindered state flexibility to
shift funds among programs. For example, one state
program director said that if his program funds were put
into a large pot with all of the other programs' funds, then
another program director would get his funds. To ease
program staff fears, some state agency directors had
decided not to shift funds across programs.

Some recipients had achieved some flexibility by using
carryover funds to address unfunded priorities. For
example, South Dakota had used some of its PPG carryover
funds to implement projects such as concentrated animal
feeding permitting and geographical information systems
mapping. South Dakota staff stated that PPG carryover
funds provided funding to perform special projects that
would not have been possible under categorical grants.



          14                 Report No. 1999-000209-R8-100302
                                         Region 8 Needs to Improve Its PPG Program to Ensure
                                           Accountability and Improved Environmental Results


                              Another barrier to shifting funds was the lack of a well
                              thought out disinvestment/investment process. While work
                              plan negotiations considered states’ strategic plans, several
                              state and regional staff said that establishing a clear
                              disinvestments/investment process to address environmental
                              priorities was difficult and had not yet been done. In
                              consultation with the Region, recipients should strategically
                              plan their annual priorities upfront, identify funding needed
                              to accomplish those priorities, and determine where
                              disinvestments/investments can be made to benefit the
                              environment.

                              In contrast to states, tribes realized substantial flexibility
                              moving from categorical grants to PPGs. Tribes did not
                              have strong constituencies, legislative reporting
                              requirements, or internal turf battles that hindered flexibility.
                               One tribal staffmember said that the Tribe's Council did not
                              require staff to continue tracking funds by individual
                              program once the Tribe received a PPG. A tribe’s
                              environmental office often consisted of one person working
                              on several different programs, eliminating any turf issues.
                              As a result, at least one tribe was able to more easily create
                              a multi-media program that could address their
                              environmental priorities.

Recipients Achieved Varying   Recipients realized varying degrees of administrative
Degrees of Administrative     savings. While most states realized minimal administrative
Savings                       savings, tribes realized significant savings. Recipients said
                              that generally, PPGs reduced the number of grant
                              applications and budget information submitted to the
                              Region. For example, North Dakota identified in its fiscal
                              1998 end-of-year report that it had experienced
                              administrative savings in the preparation, negotiation, and
                              administration of one grant versus nine separate grants.
                              However, most states still had to maintain program-specific
                              cost information because of legislative requirements. In
                              contrast, one tribal representative stated that they did not
                              have to track program-specific cost information. Tribal
                              staff also said that PPGs simplified the administrative


                                        15                  Report No. 1999-000209-R8-100302
                                        Region 8 Needs to Improve Its PPG Program to Ensure
                                          Accountability and Improved Environmental Results


                             process resulting in significant administrative savings. One
                             tribal representative said PPGs reduced administrative costs
                             by 700 percent.

                             Neither states nor tribes realized reduced administrative
                             burdens or costs in preparing work plans and reports.
                             While some state staff stated that PPAs included fewer
                             commitments than categorical work plans, staff still
                             prepared the same number of work plans. The state staff
                             simply consolidated these work plans into a single
                             document. Some state and regional program staff said that
                             this new PPG process was burdensome because PPA
                             negotiations were frustrating and time consuming. In
                             addition, some state staff said that they had to report more
                             on PPGs than categorical grants. For example, they now
                             had to report on core performance measures, statutory and
                             regulatory requirements, and additional performance
                             measures related to the state's overall goals. In addition,
                             tribal staff found it burdensome to report on environmental
                             accomplishments.

Some Improvements In         Of the four PPG program goals, the Region has made the
Strengthening Region 8 and   most progress in strengthening its partnerships with
Recipients' Partnerships     recipients. Recipient managers and program staff stated
                             that a key benefit of the PPG program was the improved
                             partnerships that had developed between recipients and
                             EPA. For example, two state program staff said that the
                             PPG helped some regional staff move from a command and
                             control approach to more of a joint partnership. Other
                             regional and recipient staff said that under the PPG
                             process, both Region 8 and recipients were better informed
                             about the other's priorities. State representatives stated that
                             the Region was now recognizing the state's priorities as
                             valid.

                             In addition to improving the relationship between EPA and
                             recipients, another expected benefit of the PPG program is
                             to develop partnerships where both parties deploy their
                             unique resources and abilities to jointly accomplish those


                                       16                 Report No. 1999-000209-R8-100302
           Region 8 Needs to Improve Its PPG Program to Ensure
             Accountability and Improved Environmental Results


goals. For example, Region 8, Utah Department of
Environmental Quality, and local health departments in
southern Utah formed a three-way partnership with an
emphasis on problem solving rather than oversight. The
partnership included a community-based concept
empowering elected officials and citizens to develop a list
of local environmental priorities and problems to be
addressed jointly. Utah's Deputy Director for the
Department of Environmental Quality attributed the
success of the partnership to each partner bringing
knowledge, assistance, and possible solutions to the
discussion table and focusing on the problem, rather than
oversight roles.

Despite the improvements cited by recipients and PPG
project officers, some regional program staff stated that
partnerships had not greatly improved overall. In some
instances, regional program staff stated that the PPA
process had strained relationships between regional and
state staff. One regional program manager stated that the
partnership with the states had definitely not improved and
that some regional staff viewed the partnership as
nonexistent. He stated that PPA negotiations were difficult
and many times resulted in shouting matches with other
state staff.

Several state representatives said that regional enforcement
staff did not consistently act in the spirit of partnerships.
For example, one state director said that regional
enforcement staff were primarily focused on oversight and
were not willing to provide flexibility or compromise on
enforcement issues. A regional enforcement manager
stated that while regional enforcement staff agreed with the
concept of performance partnerships, recipients needed to
recognize that regional enforcement staff still had oversight
responsibilities to ensure that states and regulated industry
complied with environmental laws.

While the relationship between regional enforcement and


          17                Report No. 1999-000209-R8-100302
                                   Region 8 Needs to Improve Its PPG Program to Ensure
                                     Accountability and Improved Environmental Results


                         state staff was still contentious, regional staff have taken
                         some important steps to improve the relationship.
                         According to regional staff, enforcement managers visited
                         each of Region 8's six states to discuss how the partnership
                         between regional and state staff could be improved. For
                         example, regional enforcement and South Dakota state staff
                         agreed on a process to coordinate enforcement actions and
                         allow the Region to perform its oversight role.

Improved Environmental   The most important PPG program goal, in our opinion,
Results Uncertain        was improved environmental results. However, Region 8
                         and states were uncertain whether the PPG program had
                         improved environmental results. According to PPG
                         guidance, improved environmental performance will be
                         achieved by increasing the use of environmental indicators
                         and program performance measures, and decreasing the
                         reporting of inputs and activities. While Region 8 and some
                         states have made efforts to develop and use indicators and
                         outcome measures, they had primarily relied upon outputs
                         and activities. Regional staff agreed that until good
                         outcome measures were developed with appropriate
                         indicators, environmental results would be difficult to
                         determine. One tribal representative stated that her tribe
                         had not yet moved toward measuring environmental results
                         and that the tribe was still focused on meeting the
                         programs’ core requirements. Further, a tribal PPG project
                         officer stated that PPGs emphasized reporting on
                         accomplishments and results, but tribes were accustomed to
                         focusing on work plan development rather than end-of-year
                         reporting.



PPG PROGRAM NEEDED       Many regional program staff disagreed with how Region 8
FULL REGIONAL            implemented the PPG program. Specifically, they disagreed
COMMITMENT AND           with: (1) senior regional management’s definition of
PARTICIPATION            partnership as demonstrated by their actions; (2) the lack of
                         detail in work plan commitments; and (3) as with
                         categorical grants, the Region not enforcing any


                                   18                Report No. 1999-000209-R8-100302
           Region 8 Needs to Improve Its PPG Program to Ensure
             Accountability and Improved Environmental Results


consequences for noncompliance with grant conditions. As
a result, some regional staff did not actively participate in
the PPG process. We concluded that a lack of active
participation among regional staff lead to a lack of
commitment to the PPG program.

Some regional program staff disagreed with senior regional
management’s definition of partnership as demonstrated by
their actions. For example, one regional staffmember stated
that senior managers considered everything about the PPG
as negotiable and that regional staff should be flexible with
recipients. However, regional program staff believed that
some things, such as following statutory and regulatory
requirements, were not negotiable. According to regional
program staff, senior management in the Region and
headquarters said that EPA Government Performance and
Results Act commitments should not be included in work
plans because core performance measures provided all
necessary reporting information. However, regional
program staff stated that states did not formally report all
necessary information and regional program staff had to
contact states to obtain additional information. As a result,
regional staff stated that they were “stuck in the middle”
between EPA reporting requirements and what senior
managers were negotiating with recipients.

Some regional program staff disagreed with the lack of
detailed work plan commitments. For example, in
negotiations with recipients, senior regional managers had
decided that if a state chose to include only national core
performance measures as their work plan commitments,
then regional program staff could not include any additional
measures. According to regional program managers and
staff, the PPG program became a means to provide states
with grant funds without adequate financial and
programmatic accountability. In fact, several regional
program staff said that states wanted “EPA to leave the
money on the stump and walk away.” We discuss regional
program staff's concerns regarding work plan commitments


          19                Report No. 1999-000209-R8-100302
           Region 8 Needs to Improve Its PPG Program to Ensure
             Accountability and Improved Environmental Results


in greater detail and provide related recommendations in
Chapter 3.

Some regional program staff disagreed with the Region's
approach of not enforcing any consequences for
noncompliance with grant conditions. For example, one
regional program manager stated that the Region would not
withhold grant funds even when recipients’ submitted end-
of-year reports 4 months late. A regional program
staffmember stated that senior regional managers also did
not withhold grant funds when one state intentionally did
not report on all its work plan commitments.

As a result of regional program staff disagreements, some
staff did not actively participate in many PPG activities. For
example, some regional program staff quit attending PPG
related meetings and provided only cursory reviews of PPAs
and end-of-year reports.

Region 8's PPG project officers recognized that regional
program staff disagreed with many aspects of the Region's
PPG program. PPG project officers identified in a 1997
summary of lessons learned from the PPA development
process that one major problem was a lack of strong
commitment throughout the Region and states. However
they stated, and we agreed, that it would take both PPG
project officers and regional program managers and staff
working together to have a successful PPG program. While
PPG project officers could coordinate and champion the
PPG program, the program would not be successful until all
regional program staff made a commitment to the program.
The success of the PPG program requires Region 8 staff
letting go of the traditional EPA oversight role and focusing
on how best to work with recipients to achieve
environmental results. However, the process of “letting go”
involves trust in the new system, and this can only happen if
regional staff disagreements are addressed.




          20                Report No. 1999-000209-R8-100302
                                          Region 8 Needs to Improve Its PPG Program to Ensure
                                            Accountability and Improved Environmental Results




REGION 8 NEEDED TO             The Region recognized the importance of establishing goals
DEVELOP REGIONAL               and evaluating progress, but had not developed specific
PPG PROGRAM GOALS              regional PPG program goals and measures to determine
AND PERFORMANCE                whether it was progressing toward achieving those goals.
MEASURES AND DEFINE            In addition, regional staff were unclear about their roles and
STAFF ROLES AND                authority. Furthermore, some regional program staff
AUTHORITY                      suggested additional responsibilities for PPG project
                               officers.

Regional PPG Program Goals     While PPG project officers recognized the importance of
and Performance Measures       establishing goals and performance measures for the
Needed to Ensure Effective     Region’s PPG program, Region 8 had not developed
Implementation and Progress    specific regional PPG program goals and performance
                               measures. The Region did not have performance measures
                               and related milestones in place to periodically measure how
                               the Region and recipients were progressing toward PPG
                               program goals. For example, Region 8 had not specified a
                               measurable and quantifiable goal for administrative savings.
                               As a result, the Region could not evaluate recipients success
                               in cost reduction. As part of its 1998-1999 priority-setting
                               process, the Office of Partnerships and Regulatory
                               Assistance stated that without measuring and assessing the
                               Region’s actions, taking success stories to the public would
                               be difficult. All regional staff should have input in
                               developing the Region’s PPG program goals and
                               performance measures to ensure commitment from all
                               regional staff.

Regional Staff Unclear About   Some regional staff were unclear about the respective
Roles and Authority            coordination roles of PPG project officers and program
                               contacts. For example, one PPG project officer and a state
                               program contact each assumed that the other incorporated
                               changes into a state’s draft PPA. However, when the PPA
                               was routed for final concurrence, the issues had not been




                                         21                Report No. 1999-000209-R8-100302
                                        Region 8 Needs to Improve Its PPG Program to Ensure
                                          Accountability and Improved Environmental Results


                              resolved or included in the PPA.

                              PPG project officers stated that they were also often
                              confused about the authority of the program contacts. PPG
                              project officers stated that they encountered problems
                              when: (1) a program contact’s role and authority were not
                              clear to them or other program staff, (2) a contact’s other
                              duties affected the degree of follow-up that was completed
                              with staffmembers, and (3) PPG project officers had
                              conflicting expectations of what program contacts were
                              going to do.

Regional Staff Suggested      Regional program staff also stated that PPG project officers
Additional Responsibilities   could do more to assist the regional program staff. Several
for PPG Project Officers      regional program staff provided suggestions. One regional
                              program staffmember stated that project officers could
                              review PPG end-of-year reports for completeness and
                              responsiveness to all commitments. While the program
                              staffmember recognized that the project officers did not
                              have all the needed technical expertise, she believed that
                              PPG project officers could more thoroughly review the
                              reports to ensure that recipients responded to all
                              commitments. In addition, if the program staff decided that
                              additional information was required, PPG project officers
                              could contact the recipient. Another regional staffmember
                              suggested that project officers become more knowledgeable
                              about the different programs. She suggested that the
                              project officers attend program staff meetings and attend
                              state directors' teleconferences when annual priorities and
                              grant allocations were discussed. One PPG project officer
                              stated that when the Region reorganized, PPG project
                              officers attended program staff meetings. However, he
                              stated that PPG project officers stopped attending the
                              meetings because project officers determined that their
                              attendance was no longer necessary.



CONCLUSION                    Not all of the benefits that EPA thought the PPG program
                              would provide were realized in terms of seeing and

                                        22               Report No. 1999-000209-R8-100302
                            Region 8 Needs to Improve Its PPG Program to Ensure
                              Accountability and Improved Environmental Results


                  measuring environmental improvements. Regional and
                  state staff could not determine or demonstrate whether the
                  PPG had resulted in improved environmental results and
                  human health. Region 8 and recipients had identified
                  several examples of progress toward achieving each PPG
                  goal. However, various barriers within the Region and
                  recipients’ agencies prevented them from fully achieving
                  those goals. Some regional staff disagreed with the
                  Region’s implementation of the PPG program and did not
                  commit to the PPG program or actively participate in the
                  PPG process. Without widespread regional staff
                  commitment and participation, Region 8 will continue to
                  have difficulty fully accomplishing PPG program goals.
                  Without specific regional PPG program goals and
                  performance measures, regional and state staff could not
                  track PPG program progress and demonstrate whether
                  PPGs have resulted in improved environmental results and
                  human health.




RECOMMENDATIONS   We recommend the Regional Administrator:

                  2-1.   Work with recipients to develop a strategy to
                         overcome barriers to accomplishing the four PPG
                         program goals. Regional staff assistance could
                         include obtaining examples from other regions and
                         states on their successful efforts.

                  2-2.   Strongly encourage states to initiate a joint EPA-
                         state strategic planning process to identify state
                         environmental priorities and help make decisions on
                         investments and disinvestments.

                  2-3.   Highlight and communicate successful efforts to
                         improve partnerships throughout the Region,
                         particularly enforcement partnerships.



                           23                Report No. 1999-000209-R8-100302
          Region 8 Needs to Improve Its PPG Program to Ensure
            Accountability and Improved Environmental Results


2-4.   Emphasize during senior regional and program staff
       meetings, that the PPG program requires both PPG
       project officers and regional program staff working
       together to achieve program success.

2-5    Establish a forum where regional program staff can
       discuss their disagreements and concerns with senior
       managers regarding the Region’s PPG program
       implementation. While addressing regional staff
       concerns, regional staff should brainstorm possible
       solutions that support achieving PPG program goals.

2-6.   Seek to reach consensus or a common
       understanding among EPA and recipient staff on the
       definition of partnership and on the behaviors that
       demonstrate partnership.

2-7.   Direct staff to clearly identify and elevate recipients’
       noncompliance with grant conditions to senior
       regional staff.

2-8.   Require regional program staff to attend and actively
       participate in all appropriate PPG related meetings.

2-9.   Develop and periodically adjust specific, realistic
       goals and related performance measures with
       specific milestones for the Region’s PPG program.
       All appropriate regional staff should participate in
       developing these goals and performance measures
       (not just PPG project officers).

2-10. Emphasize Region 8's PPG program goals at
      divisional staff meetings and regional all-employees
      meetings. In addition, the Regional Administrator
      should consider identifying Region 8's PPG program
      goals as part of the Region’s strategic plan and
      priorities.




         24                 Report No. 1999-000209-R8-100302
                                Region 8 Needs to Improve Its PPG Program to Ensure
                                  Accountability and Improved Environmental Results


                     2-11. Consider including the Region’s PPG program goals
                           and performance measures as part of Region 8's
                           employee evaluation and reward system.

                     2-12. Clearly define the roles and authority of all those
                           involved with the PPG program, as recommended in
                           the State Assistance Program’s General Assessment
                           of the Performance Partnership Process (undated)
                           and distribute to all regional staff.

                     2-13. Identify additional responsibilities PPG project
                           officers could perform to assist regional program
                           staff such as those suggested by regional program
                           staff. (See page 22 of this report.)



AGENCY COMMENTS      Region 8 concurred with all the recommendations in
AND OIG EVALUATION   Chapter 2 and offered some comments. We agreed with
                     some of the Region’s comments and made some minor
                     modifications to our original recommendations. We also
                     included the full text of the Region’s comments as Appendix
                     I. Region 8 disagreed with our definition of the “PPG
                     program.” The Region suggested that we substitute
                     “NEPPS” for “PPG” in the title of Chapter 2, and in many
                     other places throughout the report, because our review
                     included parts of NEPPS including the PPA process. We
                     modified the report to clarify the basis for our definition.
                     Specifically, we clarified the basis of our definition of the
                     “PPG program” in Chapter 1, and added some clarifying
                     information in Exhibit 1(Scope and Methodology).

                     The Region suggested that recommendation 2-2 could be
                     strengthened and used as a guiding principle for midyear
                     meetings with recipients. The Region stated that tying
                     program priorities to budget priorities will encourage better
                     strategic planning. The Region also stated that some
                     changes need to be made at the National Program
                     Management level first.


                               25                Report No. 1999-000209-R8-100302
          Region 8 Needs to Improve Its PPG Program to Ensure
            Accountability and Improved Environmental Results


With regard to recommendation 2-9, Region 8 stated that
headquarters should develop PPG program goals and
performance measures with specific regional goals as a
subset. Region 8 also said it should have a system to
measure its results.




         26                Report No. 1999-000209-R8-100302
                             Region 8 Needs to Improve Its PPG Program to Ensure
                               Accountability and Improved Environmental Results



                   CHAPTER 3

       BETTER WORK PLANS NEEDED TO ENSURE
            ADEQUATE ACCOUNTABILITY
                  We could not determine whether Region 8 work plans
                  included adequate financial and programmatic
                  accountability. Although we found criteria on what
                  components should be included in work plans, we did not
                  find specific criteria that defined what a work plan should
                  include to ensure adequate financial and programmatic
                  accountability. Further, Region 8 did not have agreement
                  or consensus on what work plans should include to ensure
                  accountability. Recipients’ work plans varied in format and
                  language, making it difficult to determine whether they
                  included required core performance measures. In addition,
                  not all of the core performance measures and other
                  measures used were time-specific, measurable, quantifiable,
                  and verifiable. Regional and state staff relied primarily on
                  activity or output measures because staff found it difficult to
                  develop outcome measures, did not have good examples of
                  outcome measures, and had not developed or identified
                  baseline data. Also, some regional program staff stated that
                  they and EPA National Program Managers continued to ask
                  for output data needed to meet statutory and regulatory
                  requirements. Without work plans that clearly demonstrate
                  adequate accountability, the Region could not determine
                  whether recipients used PPG funds efficiently and
                  effectively and accomplished improved environmental
                  results.



REGULATIONS AND   The 1996 and 1998 PPG guidance outlines work plan
GUIDANCE DEFINE   requirements as the basis for the management and
WORK PLAN         evaluation of performance under the grant agreement. The
REQUIREMENTS      work plan should include core program commitments
                  (goals, performance measures, program activities) derived


                            27                 Report No. 1999-000209-R8-100302
           Region 8 Needs to Improve Its PPG Program to Ensure
             Accountability and Improved Environmental Results


from statutes, regulations, and standing legal agreements
between EPA and recipients. Performance measures that
are PPG program commitments must be time-specific,
measurable, quantifiable, and verifiable. In addition, EPA
encourages all recipients to adopt outcome and output-
orientated performance measures that track program
performance as well as environmental conditions and trends.

Appropriate accountability provisions are essential in
designing the new PPG program. The PPG guidance states
that:

       A fundamental goal of EPA’s efforts to
       design accountability provisions into PPGs is
       to begin moving Federal, State, and Tribal
       programs toward the use of results-oriented
       measures of environmental and program
       performance that are understandable and
       meaningful to the public.

Further, the work plan should also establish procedures
(e.g., mid-year and end-of-year reviews, reporting
requirements, joint activities) that EPA and the recipient will
use for evaluating accomplishments, discussing progress,
and making adjustments to meet milestones. The PPG
guidance states that EPA should work with recipients to
balance the need to maintain core program requirements
with the need to incorporate program flexibility and move
toward program performance measures and environmental
indicators.

Core performance measures are a limited set of national
measures designed to help gauge progress toward
protection of the environment and human health as well as
provide a national picture of the status of the environment.
EPA and the Environmental Council of the States developed
core performance measures to help focus EPA




          28                 Report No. 1999-000209-R8-100302
                            Region 8 Needs to Improve Its PPG Program to Ensure
                              Accountability and Improved Environmental Results


                  and state attention on improving how they measured the
                  effectiveness of their environmental protection efforts.



REGION 8 NEEDED   Region 8 did not have agreement, or at least consensus, on
CONSENSUS ON      what should be included in work plans to ensure adequate
WORK PLAN         financial and programmatic accountability. EPA guidance
ACCOUNTABILITY    established general work plan requirements, such as work
                  plans specifying commitments and a time frame for their
                  accomplishment. However, we did not find criteria or
                  guidance that specifically defined what regional and state
                  staff should include in work plans to ensure adequate
                  financial and programmatic accountability. Regional staff
                  disagreed on: (1) whether core performance measures were
                  sufficient by themselves, and (2) what amount of detail in
                  work plan commitments provided adequate accountability.
                  As a result, some regional program staff said they did not
                  use and derived no value or benefit from PPAs.

                  Region 8 staff did not have agreement or consensus on
                  whether core performance measures were sufficient by
                  themselves to ensure adequate financial and programmatic
                  accountability. Some senior regional and state managers
                  had determined that if a state chose to include only core
                  performance measures as their work plan commitments,
                  then regional program staff could not include any additional
                  measures. In contrast, some regional program managers
                  and staff stated that core performance measures did not
                  provide sufficient detail to ensure adequate accountability
                  and wanted to include additional work plan commitments.
                  They stated that core performance measures did not
                  encompass all basic core program requirements such as
                  those contained in delegation agreements. For example, one
                  program manager said the State of Montana declined to
                  input any information into the National Toxic Inventory
                  System because the core performance measures
                  did not specifically require such reporting.



                            29               Report No. 1999-000209-R8-100302
           Region 8 Needs to Improve Its PPG Program to Ensure
             Accountability and Improved Environmental Results


Region 8 staff did not have agreement or consensus on
whether the amount of detail in work plan commitments
provided adequate financial and programmatic
accountability. For example, senior regional management
and PPG project officers determined that commitments
related to statutes and regulations did not need to be
repeated in the PPA and that referencing them was
sufficient. However, several regional program staff stated
they pushed for commitments that included specific details,
such as those required by statutes and regulations, but
ultimately senior regional management disagreed and did
not allow the additional specific details to be included in the
work plans. As a result, some regional program staff quit
participating in regional-state PPA related meetings and did
not use PPAs to hold recipients accountable.

Regional program staff had identified PPA accountability
problems in 1997. In a 1997 Region 8 summary of lessons
learned related to the PPA development process, regional
program staff identified that work plans should: (1) provide
clear measures of accountability, (2) act as both the grant
agreement and a management or tracking tool, and (3)
clearly state how PPAs fit in with other agreements such as
delegation and enforcement agreements.

Some regional program staff stated that prior categorical
grant work plans were very detailed and state staff viewed
that as micro-managing state programs. However, regional
program staff stated that the Region’s implementation of the
PPG had swung the pendulum too far in the opposite
direction with few details in work plan commitments.
Regional program staff stated that PPAs should be a
management tool for both regional and state staff and
should reflect specific program activities and goals. One
regional program manager stated that PPAs were not
serving all Region 8 staff needs.




          30                 Report No. 1999-000209-R8-100302
                               Region 8 Needs to Improve Its PPG Program to Ensure
                                 Accountability and Improved Environmental Results


WORK PLANS DID NOT   Work plans varied in format and language from program to
CLEARLY IDENTIFY     program and from state to state, which made it difficult to
CORE PERFORMANCE     determine whether work plans included all required and
MEASURES             appropriate core performance measures. Only one of the
                     five state work plans clearly identified the core
                     performance measures for each of the three programs we
                     reviewed. In the other four work plans, core performance
                     measures were not clearly identified in one or more
                     programs. For example, North Dakota’s work plan
                     included all the surface water quality program core
                     performance measures, but were not identified as such.
                     The hazardous waste program included some of the core
                     performance measures among its commitments but did not
                     clearly identify the core measures, or did not clearly tie
                     work plan commitments with the national core measures.
                     Some of the commitments may have been core measures
                     that had been appropriately modified. However, without a
                     clear tie, it was difficult to distinguish between such a
                     commitment and a commitment that the state and the
                     Region had added. In contrast, Utah clearly tied each work
                     plan commitment to its respective national core
                     performance measure even if the language had been
                     drastically modified.



MOST COMMITMENTS     Most of the work plan commitments we reviewed were not
WERE NOT TIME-       time-specific, measurable, quantifiable, and verifiable. Of
SPECIFIC,            the 727 commitments in the five state work plans reviewed,
MEASURABLE,          only 76 (or about 10.5 percent) met all four attributes.
QUANTIFIABLE, AND    PPG guidance states that performance measures included in
VERIFIABLE           PPG work plans as commitments must be measurable,
                     quantifiable, and verifiable. In a memorandum dated
                     December 13, 1995, OIG stated commitments must also be
                     time-specific.

                     The PPG guidance did not define any of these terms;
                     therefore, we established our own definitions for the
                     purpose of our analysis. Time-specific means a date or a


                               31               Report No. 1999-000209-R8-100302
           Region 8 Needs to Improve Its PPG Program to Ensure
             Accountability and Improved Environmental Results


 clear statement that the commitment is to be accomplished
within a specific timeframe. Measurable means the relative
change in something can be determined. We defined
quantifiable as having a numerical value. Verifiable means it
could be proved true or accurate.

Many work plan commitments were not time-specific.
Each of the five state work plans we reviewed included
commitments that had “on going,” “as necessary,” “as
needed,” “as required,” and “as requested” for milestone
dates. For example, Colorado’s ambient water quality
monitoring program had a measure, “Where requested,
work with local communities to identify solutions to
impending planning/wastewater management issues....”
South Dakota’s surface water quality program had “on-
going” as the milestone for its measure, “Review criteria
for toxicants other than priority pollutants and adopt
criteria to protect the designated use.”

In addition, some of the work plans contained
commitments that did not include annual measures or
targets to quantify annual program performance. The
following are examples from several PPAs:

       •        “Provide facility specific compliance
                information through automated data
                systems,”

       •        “Implement federally approved requirements
                on schedule and encourage higher uses of
                oxygenates through Reg No.13,”

       •        “Investigate waterborne disease, spills,
                chemical contamination events, and other
                water quality issues affecting PWS,” and

       •        “Target five laboratories and meet with them
                so they know what resources we can




           32               Report No. 1999-000209-R8-100302
                                  Region 8 Needs to Improve Its PPG Program to Ensure
                                    Accountability and Improved Environmental Results


                              •       offer them.”
                      Most commitments in work plans were not measurable,
                      quantifiable, and verifiable as shown in the examples
                      below:

                              •        “Improve customer service through
                                       operation of the automobile inspection and
                                       maintenance program,”

                              •        “Improve automation and achieve further
                                       streamlining of the entire permit process,"
                                       and

                              •        “Monitoring capability is enhanced along
                                       Wasatch Front.”

                      Many of the work plan commitments we reviewed would
                      be measurable, quantifiable, and verifiable if specific
                      targets and/or baselines were identified as part of the
                      commitment.

                      See Exhibit 2 for contrasting examples of commitments
                      that met these attributes with those that did not.



STAFF CONTINUED TO    Regional and recipient staff continued to rely primarily on
RELY ON ACTIVITY OR   activity or output measures because staff found it difficult
OUTPUT MEASURES       to develop and report on outcome measures, did not have
                      good examples of outcome measures, and had not
                      developed or identified baseline data. Commitments for
                      the programs we reviewed in the five state and the three
                      tribal work plans were primarily activity or output
                      measures. Some regional staff said that EPA National
                      Program Managers in addition to regional program staff
                      continued to ask for output data needed to meet statutory
                      and regulatory requirements.

                      Regional and state staff said that they relied on activity or


                                  33                Report No. 1999-000209-R8-100302
           Region 8 Needs to Improve Its PPG Program to Ensure
             Accountability and Improved Environmental Results


 output measures because developing and reporting on
outcome measures was difficult. For example, one state
program staffmember stated that developing outcome
measures for preventive programs was extremely difficult
because staff were unsure how they would measure the
amount of pollution they prevented and validate it. A
regional program staffmember stated that reporting on
outcome measures for the pesticides program was difficult
because some data did not exist, such as the reduction in
pesticide poisonings. In addition, some regional program
staff stated that program staff had not made any effort to
develop outcome measures because staff perceived it as
requiring time away from their real work.

Regional and recipient staff relied on activity measures
because they stated that they did not have good examples of
outcome measures. For example, one state program
staffmember stated no one had provided or developed good
examples of outcome measures.

Regional and recipient staff said they relied on activity
measures because they had not developed or identified
baseline data. A PPG project officer said that states and
EPA needed to establish a baseline and measure progress
from that baseline. For example, one state’s work plan
commitments included “Monitoring capability is enhanced
along Wasatch Front.” However, without a baseline that
first establishes what the State’s capability is, the State
would have difficulty measuring and demonstrating
“enhanced” capability.

EPA National Program Managers and some regional
program staff continued to ask for output data needed to
meet statutory and regulatory requirements. One regional
program staffmember said that the reason for the continued
use of output measures was that these types of measures
were required by statutes, regulations, delegation
agreements, national program guidance, and in some cases,
by national mandate. EPA guidance states, and we agreed,


          34                Report No. 1999-000209-R8-100302
                       Region 8 Needs to Improve Its PPG Program to Ensure
                         Accountability and Improved Environmental Results


             that work plans should include a mixture of output and
             outcome measures.



CONCLUSION   We could not determine whether recipient work plans
             included adequate financial and programmatic
             accountability. We did not find, and Region 8 had not
             developed, specific criteria that defined what a work plan
             should include to ensure accountability. Further, Region 8
             did not have agreement, or at least consensus, on the
             amount of detail necessary in work plan commitments.
             Two different views existed in Region 8 regarding work
             plan commitments. One view was that everything was
             negotiable and another was that statutory and regulatory
             requirements were not negotiable. We agree that statutory
             and regulatory requirements are not negotiable and should
             be included as part of the work plan commitments.
             Work plans varied in format and language, making it
             difficult to determine whether they included required core
             performance measures. In addition, not all measures in the
             work plans were time-specific, measurable, quantifiable,
             and verifiable. Without work plans that clearly
             demonstrate adequate accountability, the Region could not
             use them to hold recipients accountable. In addition, some
             regional staff did not view PPAs as providing value or
             benefit as a day-to-day working document.

             Recipient work plans we reviewed included commitments
             that were primarily output measures. Regional and state
             staff relied primarily on activity or output measures
             because staff found it difficult to develop outcome
             measures, did not have good examples of outcome
             measures, and had not developed or identified baseline
             data. Also, some regional program staff stated that EPA
             National Program Managers and regional program staff
             continued to ask for output data needed to meet statutory
             and regulatory requirements. Although activity or output
             measures provide valuable information, they do not reflect


                       35               Report No. 1999-000209-R8-100302
                              Region 8 Needs to Improve Its PPG Program to Ensure
                                Accountability and Improved Environmental Results


                   environmental improvements and results. Outcome
                  measures with appropriate indicators and baseline data are
                  needed in addition to output measures to adequately assess
                  environmental results.



RECOMMENDATIONS   We recommend that the Regional Administrator:

                  3-1.   Develop regional guidance on what should be
                         included in a PPA or PPG work plan based upon
                         regional staff agreement, or at least consensus.

                  3-2.   Work with senior regional managers, regional
                         program staff, and PPG project officers to come to
                         agreement or consensus on: (1) whether core
                         performance measures are sufficient by themselves,
                         and (2) what amount of detail in work plan
                         commitments provides adequate accountability.
                         Consider using an impartial facilitator for this
                         process.

                  3-3.   Require that regional staff adhere to the following
                         guidelines during the development of a regional
                         agreement of accountability provisions for the work
                         plan:

                         a.        that the ultimate goal is to develop an
                                   agreement that ensures adequate
                                   accountability and flexibility,

                         b.        that everyone’s perspectives are heard, and

                         c.        that senior regional managers and staff will
                                   support the agreement or consensus reached.

                  3-4.   Require regional and state staff to clearly identify all
                         core performance measures, including modified
                         measures, included in the work plans.


                              36                Report No. 1999-000209-R8-100302
                                 Region 8 Needs to Improve Its PPG Program to Ensure
                                   Accountability and Improved Environmental Results


                     3-5.   Establish working definitions for the terms time-
                            specific, measurable, quantifiable, and verifiable.
                            Direct regional staff to ensure that all annual work
                            plan commitments are time-specific, measurable,
                            quantifiable, and verifiable.

                     3-6.   Help regional and state staff move toward using
                            outcome measures by requiring that:

                            a.        Regional program managers increase the
                                      priority of developing outcome measures
                                      with recipients to ensure that staff have the
                                      time and resources needed to adequately
                                      establish these measures,

                            b.        PPG project officers and regional program
                                      staff develop and seek out good examples of
                                      outcome measures for reference by all
                                      regional and recipient staff,

                            c.        Regional program managers and staff work
                                      with recipients to develop baseline data
                                      needed to adequately measure outcomes, and

                            d.        Senior regional managers continue
                                      encouraging National Program Managers
                                      and regional program staff to move more
                                      toward outcome measures rather than just
                                      activity or output measures.



AGENCY COMMENTS      Region 8 concurred with recommendation 3-1 but did not
AND OIG EVALUATION   concur with most of the rest of our recommendations
                     because they were, in the Region’s opinion, prescriptive
                     subparts of 3-1. However, senior regional managers
                     concurred at the audit exit conference with the revised
                     recommendations 3-2 and 3-3 as shown above. We



                                 37                Report No. 1999-000209-R8-100302
           Region 8 Needs to Improve Its PPG Program to Ensure
             Accountability and Improved Environmental Results




highlighted below those significant issues on which we and
Region 8 disagreed. We also included the full text of
Region 8's comments as Appendix I.

Region 8 disagreed with recommendation 3-4 on clearly
identifying all core performance measures in recipient work
plans because the Region believed states would refuse to
agree. While the Region stated that all core performance
measures were in the work plans, we were unable to
determine whether all appropriate measures were included
and we believe the general public would have similar
difficulty. We strongly believe that clearly identified core
performance measures are essential to providing full
accountability.

Region 8 disagreed that all work plan commitments could
be time-specific, measurable, quantifiable, and verifiable as
discussed in recommendation 3-5. However, at the exit
conference, senior Region 8 management agreed that all
annual commitments could and should meet these four
attributes and we modified our recommendation
accordingly.

Region 8 disagreed with recommendation 3-6. The Region
stated that it would move more aggressively toward
developing and using outcome measures once headquarters
identifies better outcome measures. We believe that the
Region can and should begin helping regional and state staff
to develop more and better outcome measures and not wait
for additional headquarters guidance.




          38                Report No. 1999-000209-R8-100302
                            Region 8 Needs to Improve Its PPG Program to Ensure
                              Accountability and Improved Environmental Results



                   CHAPTER 4

IMPROVED PPG END-OF-YEAR REPORTS NEEDED TO HELP
   ENSURE WORK PLAN COMMITMENTS WERE MET
                  While Region 8 monitored and evaluated recipients’
                  environmental programs, the Region’s oversight did not
                  ensure that all recipients accomplished all work plan
                  commitments and used PPG funds efficiently and
                  effectively. Some regional program staff evaluated
                  recipients’ programs by assessing compliance with
                  delegation, enforcement, and other agreements, but spent
                  little time analyzing PPG end-of-year reports. Some
                  regional program staff placed little importance on end-of-
                  year reports because these reports were based on work
                  plans that staff stated contained inadequate commitments.
                  All five of the state and one of the two tribal PPG end-of-
                  year reports we reviewed did not address all commitments
                  nor did they include descriptive responses to all
                  commitments. As a result, some regional staff were not
                  using end-of-year reports to help ensure work plan
                  commitments were met, and could not determine or
                  demonstrate whether recipients were improving
                  environmental results and human health. Regional staff had
                  mixed reactions to the Region’s new approach to the mid-
                  year review process and joint end-of-year reviews. Some
                  regional program staff stated that they were unsure if
                  recipients spent PPG funds efficiently and effectively. In
                  addition, Region 8 did not correctly calculate the match
                  requirement for two of the five PPGs we reviewed, resulting
                  in under-match of approximately $150,000.




                           39                Report No. 1999-000209-R8-100302
                                 Region 8 Needs to Improve Its PPG Program to Ensure
                                   Accountability and Improved Environmental Results


REGULATIONS AND       PPG recipients are required to prepare end-of-year reports.
PPG GUIDANCE DEFINE   PPG project officers are required to review the recipient's
EPA GRANT             end-of-year of report, provide evaluation findings to the
OVERSIGHT             recipient, and include those findings in the official PPG
                      file. As part of the Region's and recipients’ negotiation of
                      work plan commitments, PPG guidance states that the
                      Region and recipients should establish procedures that EPA
                      and the recipient will use for evaluating accomplishments,
                      discussing progress, and making adjustments to meet
                      milestones.

                      The 40 Code of Federal Regulations 31.40 states that end-
                      of-year reports will include a comparison of actual
                      accomplishments to the objectives established for the grant
                      period and reasons for not meeting objectives. The 1996
                      and 1998 PPG guidance state that in addition to evaluating
                      performance based on work plan commitments, the
                      recipient should identify any benefits that enabled the
                      recipient to perform better than expected. The 1998 PPG
                      guidance states that the recipient should also address EPA's
                      performance in helping the recipient achieve work plan
                      commitments. Further, the 1996 and 1998 guidance state
                      that the recipient should provide information on whether
                      the work undertaken under the grant: (1) addressed the
                      stated strategic priorities and goals, (2) achieved
                      administrative cost savings, (3) improved EPA-recipient
                      working relationships, and (4) improved environmental
                      results.



PPG END-OF-YEAR       Some regional program staff evaluated recipients’
REPORTS NOT USED BY   programs by assessing compliance with delegation,
ALL REGIONAL STAFF    enforcement, and other agreements, but spent little time
                      analyzing PPG end-of-year reports. Some regional
                      program staff stated that they placed little importance on
                      end-of-year reports because these reports were based on
                      work plans that contained inadequate commitments.



                                40                Report No. 1999-000209-R8-100302
                              Region 8 Needs to Improve Its PPG Program to Ensure
                                Accountability and Improved Environmental Results


                    Some regional and state program staff did not value or use
                    PPG end-of-year reports. A regional program manager and
                    staffmember stated that end-of-year reports for their
                    program addressed only core performance measures and did
                    not provide information on basic core program
                    requirements. They explained that end-of-year reports for
                    their program reflected work plan commitments which
                    excluded any measures other than core performance
                    measures. Regional program staff said that they
                    concentrated on day-to-day activities while only briefly
                    reviewing end-of-year reports. One regional enforcement
                    staffmember stated that enforcement staff only superficially
                    evaluated end-of-year reports because staff viewed the PPA
                    as simply a “checklist with no deliverables” and thus
                    provided little benefit or value. She stated that enforcement
                    staff put more effort into determining state compliance with
                    delegation and enforcement agreements. A state program
                    director said that while end-of-year reports provided good
                    documentation, his staff did not use them. Further, he
                    stated that his staff perceived regional staff as using mid-
                    year meetings, phone discussions, and site visits rather than
                    end-of-year reports for evaluating state accomplishments.
                    In contrast, one regional program manager stated that she
                    used end-of-year reports because it was the only thing her
                    program could use to hold states accountable. Another
                    regional program staffmember said that PPG end-of-year
                    reports were useful for reporting on core performance
                    measures.



SOME PPG END-OF-    All five of the state and one of the two tribal PPG end-of-
YEAR REPORTS WERE   year reports we reviewed were incomplete. The end-of-
INCOMPLETE          year reports did not address all work plan commitments and
                    did not include descriptive responses for some
                    commitments. PPG guidance states that recipients’ end-of-
                    year reports should evaluate performance based on work
                    plan commitments.



                              41                Report No. 1999-000209-R8-100302
                                 Region 8 Needs to Improve Its PPG Program to Ensure
                                   Accountability and Improved Environmental Results


Not All Work Plan      All five of the state and one of the two tribal end-of-year
Commitments Were       reports we reviewed did not address all work plan
Addressed              commitments. For example, Colorado’s air division had a
                       commitment to make seven presentations to trade groups.
                       In the State’s end-of-year report, the air division did not
                       address whether it met this commitment. Utah’s end-of-
                       year report addressed drinking water program goals, but
                       did not report on the commitments under these goals. For
                       example, the drinking water program discussed
                       accomplishments under its goal “Evaluate the feasibility of
                       forming a Regional Water Quality Alliance for small
                       treatment plants...” but did not report on the specific
                       commitments. Crow Creek Sioux Tribe’s end-of-year
                       report did not address any of the Tribe’s work plan
                       commitments related to its General Assistance Program.
                       For example, the Tribe did not report on whether it
                       developed a training plan and developed position
                       descriptions. The regional tribal PPG project officer stated
                       that she used site visits to supplement tribes’ end-of-year
                       reports.

Some Reports Did Not   All five state and one of the two tribal PPG end-of-year
Include Descriptive    reports we reviewed did not include descriptive responses
Responses              to all work plan commitments. Montana's end-of-year
                       report included very detailed narrative responses for most,
                       but not all, work plan commitments. The lack of
                       descriptive responses made it difficult for a reviewer to
                       determine if the recipient met its commitments. Four out
                       of the five state end-of-year reports included vague
                       comments such as “ongoing,” “done,” or “as required.”
                       For example, South Dakota’s end-of-year report mostly
                       included responses of “yes,” “no,” or “ongoing.” In
                       addition, North Dakota’s air program responded with
                       “done” on 91 out of 140 work plan commitments. Most of
                       these commitments had “ongoing” for their milestones.
                       Regional program staff stated these types of responses were
                       insufficient and resulted in regional program staff
                       contacting recipients for further information. One regional
                       program director stated end-of-year reports were not


                                 42                Report No. 1999-000209-R8-100302
                               Region 8 Needs to Improve Its PPG Program to Ensure
                                 Accountability and Improved Environmental Results


                      sufficient to evaluate program performance because the
                     reports were extremely vague. While regional program
                     staff recognized the importance of reduced reporting
                     burden, they stated that recipients’ responses needed to
                     provide sufficient detail to evaluate recipients’
                     performance.

                      Region 8 and recipients needed to negotiate and clearly
                     agree on the amount of detail that recipients should include
                     in end-of-year reports. Colorado and Region 8 have
                     already taken strides to improve the State’s end-of-year
                     report through a pilot effort that focuses on a joint EPA-
                     State assessment that includes determining how the State
                     will report on work plan commitments.



MIXED REACTIONS ON   Regional and state staff had mixed reactions to the
MID-YEAR PROCESS     Region’s new approach to the mid-year review process and
AND JOINT END-OF-    joint end-of-year reviews. The Region changed the mid-
YEAR REVIEWS         year review process in 1997 from a meeting to discuss
                     program status and results to a strategic planning meeting.
                     This strategic planning focused on joint prioritization and
                     planning as a prelude to PPA negotiations for the following
                     fiscal year. Some regional and state program staff
                     preferred the old process because it provided an
                     opportunity to formally review and discuss states’
                     performance. Other regional and state staff preferred the
                     new process because it was more important to focus on the
                     future and to improve the Region 8-state partnership.

                     The State Assistance Program proposed replacing separate
                     Region 8 and state end-of-year reviews with joint reviews
                     for several reasons. The program would like to improve
                     the timeliness and usefulness of end-of-year reviews, assist
                     in developing a planning document for the following year,
                     and generally improve the partnership. The State
                     Assistance Program director stated that joint reviews would
                     avoid the lengthy process of Region 8 and state staff


                               43                Report No. 1999-000209-R8-100302
                                  Region 8 Needs to Improve Its PPG Program to Ensure
                                    Accountability and Improved Environmental Results


                       reviewing and commenting on separate review reports.

                       Although some regional program staff were uncertain about
                       the feasibility of joint end-of-year reviews, Region 8 planned
                       to pilot them with Colorado for fiscal 1999. For fiscal
                       1998, states and Region 8 still conducted separate end-of-
                       year reviews. Some regional program staff have stated
                       there was neither additional time nor resources to jointly
                       discuss and write end-of-year reports. Region 8 and
                       Colorado have agreed to conduct a joint review of fiscal
                       1999 PPG program performance in the fall of 1999.



REGION UNSURE IF       Some regional program staff stated that they were unsure if
RECIPIENTS SPENT PPG   recipients spent PPG funds efficiently and effectively. They
FUNDS EFFICIENTLY      stated that once the recipient's program dollars were
AND EFFECTIVELY        included in a PPG, the program had no way of gauging how
                       a state used the dollars because work plans did not
                       specifically indicate how the recipient was going to spend
                       program dollars. Some regional program staff stated that
                       they did not receive copies of PPGs. One regional program
                       staffmember stated that it would be beneficial to review the
                       PPG for how much was allocated for each program and
                       compare it to states’ work plan commitments. PPG
                       guidance states that the PPG budget must accurately reflect
                       the grant agreement and be able to be tracked to support the
                       program outcomes and outputs cited in the grant
                       agreement. One regional program director said that a
                       state’s work plan commitments were not equivalent with the
                       amount of funding that the state received.

                       Region 8 could test a sample of PPG expenditures to help
                       ensure recipients spent PPG funds efficiently and effectively
                       as part of its management assistance program reviews.
                       Region 8's Grants, Audit, and Procurement Program
                       periodically conducted management assistance program
                       reviews at recipient agencies. These reviews provided
                       technical assistance on sound management


                                 44                Report No. 1999-000209-R8-100302
                             Region 8 Needs to Improve Its PPG Program to Ensure
                               Accountability and Improved Environmental Results


                   practices and assessed recipients’ compliance with EPA’s
                   administrative grant requirements, but did not evaluate
                   whether recipients spent PPG funds efficiently and
                   effectively.



EFFECTIVE          Region 8's Montana suboffice staff incorrectly calculated the
COORDINATION       PPG match requirements for Montana’s 1998 and Fort
NEEDED TO ENSURE   Peck Tribes’ 1997 and 1998 PPGs. Region 8 and Montana
CORRECT MATCH      suboffice PPG program staff did not effectively coordinate
CALCULATION        with each other regarding the PPG process. Montana
                   suboffice staff stated that they received incorrect grant
                   information from a senior regional staffmember. In
                   addition, Region 8's State Assistance Program did not
                   include Montana suboffice PPGs in their database used to
                   review match calculations. As a result, the state of
                   Montana's and the Fort Peck Tribes' PPGs were under-
                   matched by about $150,000. Montana suboffice staff did
                   not consistently participate in Region 8's PPG project
                   officer meetings, retreats, and grants specialist meetings.



CONCLUSION         Some regional program staff evaluated recipients’
                   programs by assessing compliance with delegation,
                   enforcement, and other agreements, but spent little time
                   analyzing PPG end-of-year reports. Some regional
                   program staff placed little importance on end-of-year
                   reports because these reports were based on work plans that
                   staff stated contained inadequate commitments. All five
                   state and one of the two tribal end-of-year reports we
                   reviewed did not address or include descriptive responses
                   to all work plan commitments. As a result, some regional
                   staff were not using end-of-year reports to help ensure
                   work plan commitments were met, and could not determine
                   or demonstrate whether recipients were improving
                   environmental results and human health. Some regional



                             45                Report No. 1999-000209-R8-100302
                            Region 8 Needs to Improve Its PPG Program to Ensure
                              Accountability and Improved Environmental Results


                   program staff had mixed reactions to the Region’s new
                  approach to the mid-year review process because it focused
                  on strategic planning rather than reviewing recipients'
                  program performance. While we agree that strategic
                  planning is important, the Region should ensure that end-
                  of-year reports or other means provide an opportunity to
                  formally review and discuss recipients’ performance.
                  Some regional program staff stated that they were unsure if
                  recipients spent PPG funds efficiently and effectively. In
                  addition, Region 8 did not correctly calculate the match
                  requirement for two of the five PPGs we reviewed,
                  resulting in under-match of about $150,000.

                  While work plans with inadequate commitments were one
                  of the reasons some regional program staff did not use end-
                  of-year reports for oversight, we included
                  recommendations in Chapter 3 designed to correct this
                  problem.



RECOMMENDATIONS   We recommend the Regional Administrator:

                  4-1. Require recipients to submit end-of-year reports
                  that specifically address each and every work plan
                  commitment.

                  4-2.   Work with senior regional managers, program staff,
                         and PPG project officers to come to agreement or
                         consensus on the minimum amount of detail that all
                         recipients should include in end-of-year reports.
                         Use this agreement or consensus as the basis for
                         negotiating recipient end-of-year reporting
                         requirements. Similar to recommendation 3-2,
                         consider using an impartial facilitator for this
                         process.

                  4-3.   Encourage recipients to provide and assist them in
                         providing information in end-of-year reports on


                           46                Report No. 1999-000209-R8-100302
          Region 8 Needs to Improve Its PPG Program to Ensure
            Accountability and Improved Environmental Results


whether the PPG helped to improve environmental results.

4-4.   Provide examples of how the PPG program (i.e.,
       through the use of a good work plan and end-of-
       year report) can be used to better evaluate program
       performance and obtain environmental results.
       These examples should demonstrate that PPGs are
       effective tools to obtain improved environmental
       results and are more than just mechanisms to
       provide grant funds.

4-5.   Revise the PPG end-of-year report format to make
       the report more valuable and useful to regional and
       state program staff.

4-6.   Ensure mid-year reviews provide an opportunity to
       formally review recipients’ past performance in
       addition to strategically plan for the future.

4-7.   Evaluate the results of the planned Region 8-
       Colorado fiscal 1999 end-of-year review and
       expand to other states if it is successful.

4-8.   Ensure regional program staff receive copies of or
       have access to all PPG and PPA documents that
       include their programs.

4-9.   Ensure recipients and regional program staff
       negotiate work plan commitments that are
       commensurate to the amount of PPG funds awarded
       to the recipient.

4-10. Consider expanding Region 8's management
      assistance program reviews to include testing a
      sample of PPG expenditures and determining
      whether recipients spent PPG funds efficiently and
      effectively and only for eligible costs.




         47                Report No. 1999-000209-R8-100302
                                Region 8 Needs to Improve Its PPG Program to Ensure
                                  Accountability and Improved Environmental Results


                     4-11. Direct Montana suboffice to submit PPG grant
                           information to the State Assistance Program to
                           ensure match calculations are correct.

                     4-12. Require Montana suboffice PPG staff to consistently
                           participate in Region 8 PPG project officer meetings
                           and retreats, and grants specialist meetings.

                     4-13. Take appropriate action to address Montana's and
                           Fort Peck Tribes' fiscal 1998 PPG under-match.



AGENCY COMMENTS      Region 8 concurred with all but one of the
AND OIG EVALUATION   recommendations in Chapter 4 and offered some comments.
                     We agreed with most of the Region’s comments and made
                     some minor modifications to our original recommendations.

                     Region 8 disagreed with recommendation 4-9 because the
                     Region believed that information about the amount of funds
                     available for each program area was unnecessary to
                     negotiate work plan commitments. We disagreed because
                     we believe that it is impossible to even begin such
                     negotiations with recipients without such information.
                     Without such information, the Region could not know how
                     many or what type of commitments should be included in
                     the work plan. We agree that one of the purposes of PPGs
                     is to allow flexibility. However, we believe that flexibility is
                     not limited by ensuring that the initial negotiations of work
                     plans include consideration of the amount of PPG funds.




                               48                 Report No. 1999-000209-R8-100302
                                               Region 8 Needs to Improve Its PPG Program to Ensure
                                                 Accountability and Improved Environmental Results



                               EXHIBIT 1
                        SCOPE AND METHODOLOGY
Our first objective was to determine if Region 8 effectively implemented its PPG program to
ensure that recipients accomplished overall PPG program goals. Our review of Region 8's PPG
program included:

       •      Interviewing all six of Region 8's state PPG project officers, two of seven tribal
              PPG project officers, and both pesticide PPG project officers regarding their roles
              and responsibilities related to the PPG program;
       •      Reviewing national and regional PPG guidance and policy to determine program
              requirements and consistency between national and regional guidance;
       •      Interviewing regional program managers and staff regarding their knowledge of
              PPG program goals and Region 8's implementation of those goals;
       •      Reviewing PPG project officers' performance standards to determine if they have
              measures related to effectively implementing Region 8’s PPG program;
       •      Evaluating Region 8’s PPG program coordination and communication among
              regional and state staff to determine if the Region's process was effective;
       •      Evaluating Region 8’s organizational placement of PPG program responsibilities to
              determine whether the placement facilitated effective program implementation;
       •      Interviewing state managers and program staff regarding the Region’s actions to
              effectively implement its PPG program and accomplish program goals;
       •      Reviewing information from the July 1998 Management Assistance Review of
              Colorado’s 1997 PPG, and 1997 and 1998 work plans to determine if similar
              issues existed; and
       •      Reviewing Region 8's Federal Managers' Financial Integrity Act reports for fiscal
              1994 through 1998 to determine whether the Region disclosed any material
              weaknesses related to its PPG program and the Region's actions to address those
              weaknesses.

We interviewed staff from Utah’s Department of Environmental Quality and Department of
Agriculture in Salt Lake City, Utah. We also interviewed staff at South Dakota’s Department of
Environmental and Natural Resources and Department of Agriculture in Pierre, South Dakota.
Our interviews with state staff primarily focused on how they perceived the Region had
implemented the PPG program including barriers and successes in accomplishing the four
program goals. We did not evaluate whether the states met their work plan commitments or
effectively implemented their PPG program.




                                              49                Report No. 1999-000209-R8-100302
                                               Region 8 Needs to Improve Its PPG Program to Ensure
                                                 Accountability and Improved Environmental Results


Our second objective was to determine if Region 8 negotiated PPG work plans that included
adequate financial and programmatic accountability. Our analysis of recipients' work plans
included:

       •      Reviewing national and regional guidance to determine the requirements for PPG
              work plans;
       •      Reviewing documentation on Region 8's PPA negotiation process to determine
              how work plan commitments were negotiated, who participated, and how disputes
              were addressed;
       •      Reviewing a judgmental sample of PPAs and tribal work plans for fiscal 1998 to
              determine whether the required work plan elements were included such as core
              performance measures; and
       •      Interviewing regional program staff to determine whether they used work plans
              and how they ensured the work plans had adequate programmatic and financial
              accountability.

We also reviewed the work plans to determine whether: (1) commitments included outcome
measures; and (2) these measures were time-specific, measurable, quantifiable, and verifiable.
Our analysis of the work plan commitments for these four required attributes included some core
performance measures as part of our judgmental sample. However, we did not specifically
evaluate the usefulness and effectiveness of these core performance measures in providing a
national environmental picture. We reviewed five out of six 1998 PPAs: Colorado, Montana,
North Dakota, South Dakota, and Utah. We reviewed the 1999 Colorado PPA and evaluated
whether Colorado implemented suggestions from the July 1998 Colorado Management Assistance
Review. We limited our review of the PPAs to commitments related to air, water, and hazardous
waste programs. We also reviewed the Region’s three fiscal 1998 tribal work plans for the Fort
Peck Tribes, Crow Creek Sioux Tribe, and Yankton Sioux Tribe. We also reviewed the fiscal
1999 Fort Peck Tribes' work plan. We did not review the entire PPA for each of the five states,
only the portions of the agreement that were identified as the PPG work plan. Further, we did not
review any documents referenced in the PPAs such as delegation and enforcement agreements.

Our third objective was to determine if Region 8's oversight ensured that recipients met PPG
work plan commitments and used PPG funds efficiently and effectively. Our review of Region 8's
oversight of PPG work plans and funds included:

       •      Reviewing PPG project officers’ files to obtain information on the methods and
              actions used to monitor and evaluate PPG activities,

       •


                                               50               Report No. 1999-000209-R8-100302
                                    Region 8 Needs to Improve Its PPG Program to Ensure
                                      Accountability and Improved Environmental Results


•   Interviewing three grant specialists and reviewing their files and determining
    whether they reviewed and properly calculated PPG match requirements,
•   Interviewing regional staff and reviewing PPG project files to determine whether
    Region 8 had an agreement with recipients on the extent of PPG oversight and
    end-of-year reporting requirements,
•   Reviewing regional management assistance program reviews to determine whether
    the Region had found any problems with recipients' controls and grant
    documentation that could affect their PPGs,
•   Interviewing regional program managers and staff regarding their oversight of PPG
    commitments and whether they reviewed and used PPG end-of-year
    reports, and
•   Evaluating a judgmental sample of PPG end-of-year reports for fiscal 1998 to
    determine if recipients accomplished all work plan commitments and described
    progress toward environmental goals. We reviewed five of six 1998 state end-of-
    year reports: Colorado, Montana, North Dakota, South Dakota, and Utah. We
    also reviewed the Fort Peck Tribes' and Crow Creek Sioux Tribe’s fiscal 1998
    end-of-year reports. We did not verify whether the five states and two tribes
    actually performed the work they said they did in the end-of-year reports.




                                   51                Report No. 1999-000209-R8-100302
                                                                            Region 8 Needs to Improve Its PPG Program to Ensure
                                                                              Accountability and Improved Environmental Results


                                            EXHIBIT 2
                                     CONTRASTING EXAMPLES OF
                                     WORK PLAN COMMITMENTS
 Time-Specific Commitments                                               Non Time-Specific Commitments

 “Finalize rule requiring dispersion modeling for air toxics by          “Provide facility specific compliance information through automated data
 9/30/97"                                                                systems”

 “An official written pesticide use policy is to be adopted by the       “Use EPA economic computer models to assist in evaluation”
 division by June 30, 1998"
                                                                         “Target five laboratories and meet with them so they know what resources
 “Resolve consecutive system issue by December 1, 1997"                  we can offer them”

 “Complete QAT recommendations by January 31, 1998"                      “Conduct two customer service surveys”

 Measurable Commitments                                                  Non-Measurable Commitments

 “Increase the laboratories electronic transfer of data by 5% by         “Business and local partnerships are developed”
 June 30, 1998"
                                                                         “Experiment with providing six LHD’s and all District Engineer's convenient
 “Percentage of population served with approved ratings”                 access to our live database via the WAN, Internet or telephone lines”

 “Establish 2-3 ozone episodes for 1996: Model performance is            “Educate the public, as well as planners and county officials, who may be
 evaluated using enhanced air quality, meteorology, and emissions        associated with approval of developments, on the necessity of getting
 data sets."                                                             approval for public supply wells from DDW prior to drilling....”


 Quantifiable Commitments                                                Non-Quantifiable Commitments

 “Establish 2-3 ozone episodes for 1996. Model performance is            “Coordinate partnership efforts among the Division, local health
 evaluated using enhanced air quality, meteorology, and emissions        departments, and EPA”
 data sets”
                                                                         “Educate the public and county officials....”
 “Number of complete source protection plans implemented by
 drinking water systems”                                                 “A port-of-entry and/or roadside diesel I/M program is implemented, if
                                                                         feasible”
 “...By June 30, 1998 measure to determine if 250 surveys have
 been performed and data input into the computer”                        “Contact CLEHA leadership by August 31, 1997 to discuss possible
                                                                         schedule and advertising issues”

 Verifiable Commitments                                                  Non-Verifiable Commitments

 “PM 2.5 monitoring is conducted and PM 2.5 data are collected           “Monitoring capability is enhanced along Wasatch Front”
 as funding is available...”
                                                                         “Regulated community compliance status improves”
 “NSR regulations are reviewed, and revised as necessary,
 annually”                                                               “The inventory process reflects stability, accuracy and thoroughness”

 “Maintain, for review by EPA/State, Compliance of stationary
 Sources Through the Compliance Monitoring Strategy by
 November 15"

* Although the above exhibit illustrates commitments with one attribute (i.e., time-specific, measurable, quantifiable, and verifiable), some of these
commitments could contain more than one attribute. In addition, many of the PPG work plan commitments we reviewed would be measurable,
quantifiable, and verifiable if specific targets and/or baselines were identified as part of the commitment.




                                                                           52                          Report No. 1999-000209-R8-100302
                                                Region 8 Needs to Improve Its PPG Program to Ensure
                                                  Accountability and Improved Environmental Results


                                   APPENDIX I
                                AGENCY RESPONSE
                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                                    REGION 8
                                          999 18TH STREET - SUITE 500
                                            DENVER, CO 80202-2466


                                       September 24, 1999
Ref: 8TMS-G

MEMORANDUM

SUBJECT:       Region 8 Needs to Improve its Performance Partnership Grant Program
               To Ensure Accountability and Improved Environmental Results
               Draft Report No. 1999-XXXXXX-CAD8-XXXXXXX

FROM:          William P. Yellowtail /signed by Kerry Clough/
               Regional Administrator
               Region 8

TO:            Bennie S. Salem
               Divisional Inspector General
               Central Audit Division

Attached are the Region’s comments to the draft report on the Office of Inspector General’s
(OIG) review of the regional Performance Partnership Grant (PPG) Program.

We would like to thank the OIG for giving us the opportunity to provide comments. We
recognize the extensive effort the OIG staff made in reviewing this relatively new program.

We would like to note that we agree with the three global recommendations listed in the
Executive Summary as stated below.

•      The Regional Administrator (RA) establish a forum where regional program staff can
       discuss their disagreements and concerns with senior regional managers regarding the
       Region’s NEPPS program implementation. During the forum, regional staff should
       brainstorm possible solutions that address their concerns as well as support achieving
       NEPPS program goals.
•


                                               53                Report No. 1999-000209-R8-100302



                                                                                   Printed on Recycled Paper
                                               Region 8 Needs to Improve Its PPG Program to Ensure
                                                 Accountability and Improved Environmental Results

•      The RA should develop regional guidance on what should be included in a PPA work plan
       based upon regional staff agreement or consensus. Agreement or consensus should be
       reached on: (1) whether core performance measures are sufficient by themselves, and (2)
       what amount of detail in work plan commitments provides adequate accountability.

•      The RA should also require recipients to submit end-of-year reports that specifically
       address each work plan commitment and provide information on whether recipients are
       improving the environment as a result of the money spent through the PPGs.


By necessity, your review of PPGs lead to an examination of PPAs, which most of our States use
to meet the PPG grant requirement concerning work plans. However, it appears to the Region
that the report is focused on PPAs and not on the narrower aspects of the PPGs. Most of the
findings, comments and recommendations appear to apply to broader PPA issues rather than PPG
implementation. We strongly urge you to clarify the distinctions between NEPPS, PPA, and
PPGs.

Attached are the Region’s comments on the specific recommendations as requested. We have
communicated and met separately with you covering a number of factual issues in the draft report.
These issues have been resolved satisfactorily. If you have any questions, please contact Barbara
Rodriguez, Regional Audit Coordinator, at 303/312-6360 or Wayne Anthofer, Director, Grants,
Audit and Procurement Program, at 303/312-6305.

Attachment

cc:    Jeff Hart, 8OIG                      Pat Hull, 8TMS
       Kerry Clough, 8P                     Carol Rushin, 8ENF
       Max Dodson, 8EPR                     Michael Gaydosh, 8ENF
       Aundrey Wilkins, 8TMS                John Wardell, 8MO
       Wayne Anthofer, 8TMS-G               Steve Burkett, 8P-SA
       Kim Victor, 8OIG                     Chris Lehnertz, 8ENF
       Barbara Rodriguez, 8TMS-G




                                               54               Report No. 1999-000209-R8-100302
                                                  Region 8 Needs to Improve Its PPG Program to Ensure
                                                    Accountability and Improved Environmental Results



Recommendations - Chapter 2: Improvements in Region 8's PPG Program
Would Help Accomplish Program Goals

General Comment:

The Region suggests you change this title to “ . . . Region 8's NEPPS Program . . . “

2-1    Work with recipients to develop a strategy to overcome barriers to accomplishing
       the four PPG program goals. Regional staff’s assistance could include obtaining
       examples from other regions and states on their successful efforts.

The Region concurs (except NEPPS should be substituted for “PPG”).

2-2    Strongly encourage states to initiate a joint EPA-State strategic planning process to
       identify State environmental priorities and help make decisions on investments and
       disinvestments.

The Region concurs with comments. This recommendation could be strengthened and used as a
guiding principle for pre-work and as a specific outcome for each of the midyear meetings, which
would give the midyear meetings more meaning. Tying program priorities to budget priorities
will encourage better strategic planning.

We also note that change needs to be made at the National Program Management (NPM) level
first. Core priorities, enforcement goals and other initiatives are defined in national guidance with
little room for the regions and states to do strategic planning, other than moving the level of effort
a little from one area to another.

2-3    Highlight and communicate successful efforts to improve partnerships throughout
       the Region, particularly enforcement partnerships.

The Region concurs.

2-4    Emphasize during senior regional and program staff meetings, that the PPG
       program requires both PPG project officers and regional program staff working
       together to achieve program success.

The Region concurs (except NEPPS should be substituted for the first use of the term “PPG”).




                                                 55                 Report No. 1999-000209-R8-100302
                                                Region 8 Needs to Improve Its PPG Program to Ensure
                                                  Accountability and Improved Environmental Results

2-5    Establish a forum where regional program staff can discuss their disagreements and
       concerns with senior managers regarding the Region’s PPG program
       implementation. While addressing regional staff concerns, regional staff could
       brainstorm possible solutions that support achieving PPG program goals.

The Region concurs (except NEPPS should be substituted for “PPG”).


2-6    Reach consensus among EPA and recipient staff on the definition of partnership
       and on the behaviors that demonstrate partnership.

The Region concurs with the following modification: “Attempt to work toward development of a
common understanding” among EPA and recipient staff on the definition . . .

2-7    Identify rewards/disincentives for recipient compliance/noncompliance with grant
       conditions.

The Region concurs with the following modification: “Direct staff to clearly identify compliance
or noncompliance in the grant conditions.”

2-8    Require regional program staff to attend and actively participate in all appropriate
       PPG related meetings.

The Region concurs (except NEPPS should be substituted for “PPG”).


2-9    Develop and periodically adjust realistic goals and related performance measures
       with specific milestones for the Region’s PPG program. All regional staff who are
       involved in the PPG process should participate in developing these goals and
       performance measures (not just PPG project officers).

The Region concurs with comments. In light of GPRA, this will be critical to every program.
Goals and performance measures for the NEPPS program should be developed at the national
level with Region 8 specific goals and measures as a subset. This could be addressed in the work
of the proposed NEPPS forum. (Also, NEPPS should be substituted for the first and second use
of the term “PPG” in your recommendation.)

The four goals for NEPPS stated in the PPG guidance have been used as the Region 8 goals, but
the Region should have a system to measure its results.



                                               56                Report No. 1999-000209-R8-100302
                                                Region 8 Needs to Improve Its PPG Program to Ensure
                                                  Accountability and Improved Environmental Results

2-10   Emphasize Region 8's PPG program goals at divisional staff meetings and regional
       all-employees meetings. In addition, the Regional Administrator should consider
       identifying Region 8's PPG program goals as part of the Region’s strategic plan and
       priorities.

The Region concurs (except NEPPS should be substituted for “PPG”).


2-11   Consider including the Region’s PPG program goals and performance measures as
       part of Region 8's employee evaluation and reward system.

The Region concurs with comments. The Region now has a modified “evaluation and reward”
system. The performance criteria are generally broader and less specific. However, this is an area
that we will consider for review. (Also, change PPG to NEPPS in your recommendation.)

2-12   Clearly define the roles and authority of all those involved with PPG program, as
       recommended in the State Assistance Program’s General Assessment of the
       Performance Partnership Process (undated) and distribute to all regional staff.

The Region concurs. Although the roles of all those involved in the NEPPS program have been
defined in Regional Orders R8.5700.1 and R8.5700.03, the orders need to be reviewed, revised
and consolidated based on the Region’s past four years’ experience implementing the NEPPS
program. Then these orders need to be identified and made known to those who are affected by
them.

2-13   Identify additional responsibilities PPG project officers could perform to assist
       regional program staff such as those suggested by regional program staff. (See page
       20 of this report.)

The Region concurs.

Recommendations - Chapter 3: Better Work Plans Needed To Ensure
Adequate Accountability

3-1    Develop regional guidance on what should be included in a PPG work plan based
       upon regional staff agreement, or at least consensus.

The Region concurs with comments. Regional guidance would supplement whatever guidance
regarding PPA work plans is specified by the Agency and/or by National Program Managers.
(Also, change PPG to PPA in your recommendation.)


                                               57                Report No. 1999-000209-R8-100302
                                              Region 8 Needs to Improve Its PPG Program to Ensure
                                                Accountability and Improved Environmental Results

3-2    Obtain an impartial facilitator to work with senior regional managers, regional
       program staff and PPG project officers to come to agreement or consensus on
       whether: (1) core performance measures are sufficient by themselves, and (2) what
       amount of detail in work plan commitments provides adequate accountability.

3-3    Require that regional staff adhere to the following guidelines during the
       development of a regional agreement of accountability provisions for the PPG work
       plan:


       y.     Ultimate goal is to develop an agreement that ensures adequate
              accountability and flexibility,
       z.     Everyone’s perspectives are valid and will be acknowledged,
       aa.    Flexibility should be a priority but not at the expense of accountability, and
       bb.    Senior regional managers and staff will support the agreement or consensus
              reached.


3-4    Require regional and state staff to clearly identify all core performance measures,
       including modified measures, included in the PPG work plans.

3-6    Help regional staff move toward using outcome measures by requiring that:

       a.     Regional program managers increase the priority of developing outcome
              measures with recipients to ensure that staff have the time and resources
              needed to adequately establish these measures,

       b.     PPG project officers and regional program staff develop and seek out good
              examples of outcome measures for reference by all regional and recipient
              staff,

       c.     Regional program mangers and staff work with recipients to develop baseline
              data needed to adequately measure outcomes, and

       d.     Senior regional managers continue encouraging national program managers
              and regional program staff to move more toward outcome measures rather
              than just activity or output measures.

The Region does not concur with Recommendations 3-2, 3-3, 3-4, and 3-6. These
recommendations are all prescriptive subparts of 3-1. We agree with Recommendation 3-1 and


                                             58                Report No. 1999-000209-R8-100302
                                               Region 8 Needs to Improve Its PPG Program to Ensure
                                                 Accountability and Improved Environmental Results

 we further agree that the issues identified in Recommendations 3-2, 3-3, 3-4, and 3-6 are
important. The Region commits to addressing these issues by performing Recommendation 3-1.

Regarding 3-4, the Region would like to point out that the core performance measures are in the
PPA work plans. We recognize that some are easier to identify than others.

Regarding 3-6, the Region will move as aggressively as possible once Headquarters identifies
the outcome performance measures and provides them to us in their guidance. As a State wants
to develop them, we would welcome their interest and provide assistance to them. States
currently express difficulty in meeting outcome measures that we do have.



3-5    Establish working definitions for the terms “time-specific”, “measurable”,
       “quantifiable”, and “verifiable”. Direct regional staff to ensure that all PPG work
       plan commitments are time-specific, measurable, quantifiable, and verifiable.

Concur with the first part of the recommendation, “Establish working definitions for the terms
“time-specific”, “measurable”, “quantifiable”, and “verifiable”.” We will consider adopting
the definitions made by the OIG in the Management Assistance Review (MAR) of the Colorado
PPA program. Do not concur with the second part of the recommendation, “Direct regional staff
to ensure that all PPG work plan commitments are time-specific, measurable, quantifiable,
and verifiable.” Certain output data are required to meet statutory or regulatory requirements
that are augmented, but not superceded by GPRA and its requirements for outcome-based
measures. In some situations, the lack of baseline data or lack of reporting mechanisms beyond
EPA control prevent truly quantifiable outcome measures. (Also, change “PPG” in your
recommendation to “PPA”.)


Recommendations: Chapter 4: Improved PPG End-of-Year Reports Needed to
Help Ensure work Plan Commitments Were Met

4-1    Require recipients to submit end-of-year reports that specifically address each and
       every work plan commitment.

The Region concurs.

4-2    Similar to recommendation 3-2, use an impartial facilitator to work with senior
       regional managers, program staff, and PPG project officers to come to agreement



                                               59               Report No. 1999-000209-R8-100302
                                                 Region 8 Needs to Improve Its PPG Program to Ensure
                                                   Accountability and Improved Environmental Results

or consensus on the amount of detail recipients should include in end-of-year reports. Use
this agreement or consensus as the basis for negotiating recipient end-of-year reporting
requirements.

The Region concurs with the modification: “Determine the minimum amount of detail recipients
should include in end-of-year reports. Use this agreement or consensus as the basis for negotiating
recipient end-of-year reporting requirements. Consider using a facilitator to work with senior
regional managers, program staff, and PPG project officers to come to agreement or consensus on
the minimum amount.” The Region will then include this into regional PPA guidance.

The end-of-year reports should fit the situation. If a State is doing a good job, the amount of
detail is not going to be the same as for a State not doing a good job.


4-3    Encourage recipients to provide and assist them in providing information in
       recipients’ end-of-year reports on whether recipients improved environmental results
       under PPGs.

The Region concurs. We support this recommendation and would like to note that this is one of
the NEPPS goals which we have been striving for in the Region. We have a few examples of end-
of-year reports which describe the improved environmental results under PPAs. (Also, change
“PPGs” to “NEPPS” in your recommendation.)

Clarification of the meaning of this sentence is needed to confirm our interpretation.


4-4    Provide examples of how the PPG program (i.e., through the use of a good work plan
       and end-of-year report) has or can be used to better evaluate program performance
       and obtain environmental results. These examples should demonstrate that PPGs
       are an effective tool to obtain improved environmental results and more than just a
       mechanism to provide grant funds.

The Region concurs. (The wording should be changed from “PPG program” to “NEPPS.)

4-5    Identify alternatives to PPG end-of-year reports if regional and state program staff
       continue to not use the reports.

The Region concurs with comments. The Region supports this recommendation, with the
following rewording: Identify alternatives to Revise the format for PPA end-of-year reports



                                                 60                Report No. 1999-000209-R8-100302
                                                 Region 8 Needs to Improve Its PPG Program to Ensure
                                                   Accountability and Improved Environmental Results

 to make them valuable and useful to if regional and state program staff. continue to not use
the reports.

4-6    Ensure mid-year reviews provide an opportunity to formally review recipients’ past
       performance in addition to strategically plan for the future.

The Region concurs. The Program and Enforcement offices are already doing this and are
moving to joint reviews when possible during media-specific mid-years. The Senior Leadership
Team (SLT) deals with priority issues during SLT/State Director mid-years.

4-7    Evaluate the results of the planned Region 8/Colorado fiscal 1999 end-of-year review
       and expand to other states if it is successful.

The Region concurs.

4-8   Ensure regional program staff receive copies of all PPGs that include their
programs.
The Region concurs with the following modification: Replace “PPG” with “PPA”.

4-9    Ensure recipients and regional program staff negotiate work plan commitments that
       reflect the allocation of PPG funds among programs.

The Region does not concur. The purpose of the PPGs is to allow flexibility to change priorities
if needed. If we add back in the allocation of program funds and accountability of funding levels
to each program, we remove the flexibility and increase administrative overhead costs. We
suggest rather that the benefits of “letting go” of this control by the NPMs and technical program
staff be identified, discussed, and consensus reached that we are all one agency, environmental
achievement is the Agency’s goal regardless of which program gets the achievement.

We should have the accountability built into the PPAs and yet maintain the flexibility as the
States need. However, since funds lose their identity when they become part of a PPG,
allocations cannot be used to track work plan commitments.

4-10   Consider expanding Region 8's management assistance program reviews to include
       testing a sample of PPG expenditures and determining whether recipients spent
       PPG funds efficiently and effectively and only for eligible costs.

The Region concurs with comments. The Region will consider this modification and expansion
of its Management Assistance Program (MAP) reviews to include a testing of PPG expenditures;
a test for “eligible” costs is already included in reviews. However, it should be understood that


                                                 61                Report No. 1999-000209-R8-100302
                                                Region 8 Needs to Improve Its PPG Program to Ensure
                                                  Accountability and Improved Environmental Results

our purpose in the MAP reviews is technical assistance in terms of good grants management
practices (financial recordkeeping, timely submission of reports, etc.) Your recommendation
would be a major modification to our MAP reviews and would take on the appearance of a
programmatic review rather than technical assistance.

4-11   Direct Montana suboffice to submit PPG grant information to the State Assistance
       program to ensure match calculations are correct.

The Region concurs.

4-12   Require Montana suboffice PPG staff to consistently participate in Region 8 PPG
       project officer meetings and retreats, and grants specialist meetings.

The Region concurs. The Montana office grants specialist already participates via teleconference
the weekly grants specialists meetings.

4-13   Take appropriate action to address the State of Montana’s and Fort Peck Tribes’
       fiscal 1998 PPG under-match.

The Region concurs. These actions are underway.




                                               62                Report No. 1999-000209-R8-100302
                                 Region 8 Needs to Improve Its PPG Program to Ensure
                                   Accountability and Improved Environmental Results



                      APPENDIX II
                    ABBREVIATIONS

EPA     Environmental Protection Agency

NEPPS   National Environmental Performance Partnership System

OIG     Office of Inspector General

PPA     Performance Partnership Agreement

PPG     Performance Partnership Grant

RA      Regional Administrator




                                 63               Report No. 1999-000209-R8-100302
                                              Region 8 Needs to Improve Its PPG Program to Ensure
                                                Accountability and Improved Environmental Results



                                    APPENDIX III
                                   DISTRIBUTION
Office of Inspector General
       Inspector General (2410)
       Deputy Assistant Inspector General for External Audits (2421)
       Deputy Assistant Inspector General for Internal Audits (2421)
       Headquarters Audit Liaison (2421)
       Divisional Inspectors General for Audit

Headquarters Offices
      Agency Followup Official, Attn: Assistant Administrator for Administration and
      Resources Management (3101)
      Agency Followup Coordinator (2724)
      Associate Administrator for Congressional and Intergovernmental Relations (1301)
      Deputy Associate Administrator for Office of State and Local Relations (1306)
      Director for Office of Regional Operations (1108)
      Associate Administrator for Communications, Education, and Media Relations (1701)
      Director for Office of Planning, Analysis, and Accountability (2721)
      Chief Financial Officer (2710)
      Headquarters Library

EPA Region 8
     Assistant Regional Administrator, Office of Partnerships and Regulatory Assistance
     Assistant Regional Administrator, Office of Enforcement, Compliance, and
     Environmental Justice
     Assistant Regional Administrator, Technical & Management Services
     Assistant Regional Administrator, Ecosystems Protection and Remediation
     Director, State Assistance Program
     Director, Montana Operation Office

Regional Offices
      Regional Administrators




                                              64               Report No. 1999-000209-R8-100302
                                              Region 8 Needs to Improve Its PPG Program to Ensure
                                                Accountability and Improved Environmental Results

States

Colorado Department of Public Health and Environment
       Director, Office of Environment

Montana Department of Environmental Quality
      Director

North Dakota Department of Health
       Chief, Environmental Health Section

Utah Department of Environmental Quality
      Deputy Director

Utah Department of Agriculture and Food
      Director, Division of Plant Industry

South Dakota Department of Environment and Natural Resources
       Director of Environmental Services

South Dakota Department of Agriculture
       Department Secretary
       Administrator for Office of Agronomy Services

Tribes

Assiniboine and Sioux Tribes
       Environmental Program Manager

Crow Creek Sioux Tribe
      Environmental Director

Yankton Sioux Tribe
      Director, Environmental Protection Program




                                              65               Report No. 1999-000209-R8-100302
